                                                                             Report No. DODIG-2014-066




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              M AY 5 , 2 0 1 4




                     Logistics Modernization Program
                     System Not Configured to Support
                     Statement of Budgetary Resources




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                              the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                                      Fraud, Waste & Abuse

                                      HOTLINE
                                      Department of Defense
                                      d o d i g. m i l / h o t l i n e



For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       Logistics Modernization Program System
                                       Not Configured to Support Statement of
                                       Budgetary Resources


May 5, 2014                                              Findings Continued

Objective                                                Army Budget Office for accurate and timely recording in the general
                                                         ledger.   This occurred because personnel did not reengineer the
We determined whether the Army’s Logistics               funds-distribution-process     or   develop     procedures    for   budget
Modernization Program (LMP) system Product               offices to record appropriate accounting entries in enterprise
Management Office implemented the Budget-                resource planning systems. In addition, Army Budget Office personnel
to-Report     (B2R)   business    process     required   did not appropriately suballot all types of budgetary authority. As
to support the Army Working Capital Fund                 a result, Army financial managers configured LMP to post the end
(AWCF) Statement of Budgetary Resources.                 effects of multiple business events that misreported the amount
                                                         and status of budgetary resources by about $1.8 billion.

Findings
LMP did not contain the functionality to                 Recommendations
perform the B2R business process. Specifically,          We recommend the Under Secretary of Defense (Comptroller)/
Army financial managers did not provide the LMP          Chief Financial Officer, DoD, develop procedures for distributing
Product Management Office the correct system             budget authority to the budget offices for recording in the
configuration     requirements.      This     occurred   enterprise resource planning systems and establish comprehensive
because Army financial managers did not assess the       suballotment procedures. We recommend the Deputy Chief Financial
DoD transaction codes to determine applicability         Officer collaborate with the Deputy Chief Management Officer to
to AWCF business areas or to incorporate existing        extend the DoD transaction codes’ alignment in the DoD Business
manual workarounds, and managers in the Office           Enterprise   Architecture.     Among    other    recommendations,       we
of the Under Secretary of Defense (Comptroller)/         recommend that Army financial managers develop a plan of action
Deputy Chief Financial Officer, DoD, did not             and milestones to validate and certify that system functionality
provide sufficient oversight.  As a result, Army         aligns with the Transaction Library, applicable business events, and
financial managers, despite spending more than           the B2R business process.
$1.8 billion, could not use the LMP trial balance
data to prepare the Statement of Budgetary
Resources       and   other      budgetary     reports   Management Comments and
without making more than $41 billion in
                                                         Our Response
adjustments. This put at risk the Army’s ability
                                                         The response from the Deputy Chief Financial Officer on
to achieve audit-ready AWCF financial statements
                                                         Recommendation B.1 partially addressed the recommendation.
by FY 2017.
                                                         Based on comments from the Acting Deputy Chief Management
Office   of     Under    Secretary      of    Defense    Officer, we redirected Recommendation A.2 to the Deputy Chief
(Comptroller)     personnel      did    not    provide   Financial Officer. The response from the Deputy Assistant Secretary
information about the preparation, submission,           of the Army (Financial Operations) addressed all the specifics
and approval of the apportionment to the                 of the recommendations directed to the Army.              Please see the
                                                         Recommendations Table on the next page.
Visit us on the web at www.dodig.mil


                                                                      Report No. DODIG-2014-066 (Project No. D2013-D000FI-0059.000) │ i
                   Recommendations Table
                                                          Recommendations Requiring      No Additional Comments
                              Management                         Comment                        Required
                    Under Secretary of Defense
                    (Comptroller)/Chief Financial        A.2, B.1.a, B.1.b, B.1.c     A.1, B.2
                    Officer, DoD
                    Assistant Secretary of the Army                                   A.3.a, A.3.b, A.3.c, A.3.d, A.3.e,
                    (Financial Management and                                         A.3.f
                    Comptroller)

                   Please provide comments by June 5, 2014.




ii │ Report No. DODIG-2014-066 (Project No. D2013-D000FI-0059.000)
                                    INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                   4800 MARK CENTER DRIVE
                                ALEXANDRIA, VIRGINIA 22350-1500

                                                                                        May 5, 2014

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF FINANCIAL
               	 OFFICER, DOD
               DEPUTY CHIEF MANAGEMENT OFFICER, DOD
               AUDITOR GENERAL, DEPARTMENT OF ARMY

SUBJECT:	 Logistics Modernization Program System Not Configured to Support Statement of Budgetary 	
	         Resources (Report No. DODIG-2014-066)

We are providing this report for review and comment. Despite spending more than $1.8  billion,
Army personnel did not perform sufficient reengineering to provide the correct system requirements
for executing the Budget-to-Report business process. As a result, the Logistics Modernization
Program system cannot provide financial managers with reliable budgetary execution information
without more than $41 billion in manual adjustments to prepare the budgetary reports. Unless
Army personnel perform the reengineering needed to implement the DoD Transaction Library
correctly, it is unlikely they will achieve audit-ready financial statements by FY 2017. Due to
the complexity of the system models and the interrelationship of various end-to-end processes,
it took considerable time to evaluate the Army’s implementation of the Budget-to-Report
business process. The report is still relevant because of the Army’s recent efforts toward audit
readiness of its working capital fund activities.

We considered management comments on a draft of this report when preparing the final report.
DoD Directive 7650.3 requires that recommendations be resolved promptly. The response
from the Under Secretary of Defense (Comptroller)/Deputy Chief Financial Officer, DoD, on
Recommendation B.1 did not address all the specifics of the recommendation. Based on
comments from the Deputy Chief Management Officer, we redirected Recommendation A.2 to the
Under Secretary of Defense (Comptroller)/Deputy Chief Financial Officer. We request additional
comments from the Under Secretary of Defense (Comptroller)/Deputy Chief Financial Officer on both
recommendations by June 5, 2014. The response from the Deputy Assistant Secretary of the Army
(Financial Operations) addressed all the specifics of the recommendation, and we do not require
additional comments.

Please send a PDF file containing your comments to audfmr@dodig.mil. Copies of your
comments must have the actual signature of the authorizing official for your organization. We
are unable to accept the /Signed/ symbol in place of the actual signature. If you arrange to send
classified comments electronically, you must send them over the SECRET Internet Protocol
Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 601-5945
(DSN 664-5945).




                                            Lorin T. Venable, CPA
                                            Assistant Inspector General
                                            Financial Management and Reporting



                                                                                    Report No. DODIG-2014-066│ iii
                   Contents
                   Introduction
                   Objective__________________________________________________________________________________________1
                   Background_______________________________________________________________________________________1
                   Review of Internal Controls_____________________________________________________________________6

                   Finding A. System Functionality Incorrectly Distributed,
                      Executed, and Reported Budget Authority____________________7
                   System Did Not Contain Required Budget-to-Report Business Process_____________________7
                   Business Process Reengineering Not Sufficient to Implement Business Process_________ 16
                   Oversight Needed to Certify Standard Financial Information Structure Compliance_____ 20
                   Trial Balance Data Do Not Support the Statement of Budgetary Resources ______________ 23
                   Conclusion______________________________________________________________________________________ 26
                   Redirected Recommendation_________________________________________________________________ 27
                   Recommendations, Management Comments, and Our Response__________________________ 27

                   Finding B. Comptroller Personnel Not Providing
                      Information to Record Budget Authority_____________________ 33
                   Information Needed to Record Budget Authority Business Events________________________ 33
                   Procedures Must Be Developed To Distribute Budget Authority Within An ERP
                      Environment_______________________________________________________________________________ 37
                   Suballotment of Budget Authority Using DoD-Unique General Ledger Accounts_________ 38
                   Budgetary Data Recorded in System Are Inaccurate________________________________________ 39
                   Recommendations, Management Comments, and Our Response__________________________ 40

                   Appendixes_____________________________________________________________________________ 43
                   Appendix A. Scope and Methodology_________________________________________________________ 43
                   	    Use of Computer-Processed Data_ _______________________________________________________ 44
                   Appendix B. Prior Coverage __________________________________________________________________ 45
                   Appendix C. Review of 23 Budget-to-Report Business Events _____________________________ 47
                   	    Perform Executive Level Planning Phase ________________________________________________ 48
                   	    Perform Programming Phase ____________________________________________________________ 49
                   	    Perform Budget Planning and Formulation Phase______________________________________ 49



iv │ Report No. DODIG-2014-066
	   Distribute and Manage Budget Phase____________________________________________________ 50
	   Manage Financial Assets and Liabilities Phase__________________________________________ 53
	   Perform Treasury Operations Phase_____________________________________________________ 56
	   Manage General Ledger Transactions Phase____________________________________________ 57
	   Perform Reporting Phase_________________________________________________________________ 59
Appendix D. General Ledger Accounts and Transaction Codes Not Implemented _______ 60
	   DoD Transaction Codes Related to Appropriated Funds_______________________________ 61
	   DoD Transaction Codes Related to Contract Authority_________________________________ 61
	   DoD Transaction Codes Related to Spending Authority________________________________ 62
	   DoD Transaction Codes Related to Budget Execution__________________________________ 63
Appendix E. Statement of Budgetary Resources to LMP Trial Balance Comparison______ 65
Appendix F. Managing the Apportionment and Allotment Process________________________ 68
	   Perform Budget Planning and Formulation Phase _____________________________________ 69
	   Distribute and Manage Budget Phase ___________________________________________________ 69

Management Comments
Under Secretary of Defense (Comptroller)/Deputy Chief Financial Officer, DoD ________ 71
Deputy Chief Management Officer, DoD______________________________________________________ 75
Assistant Secretary of the Army (Financial Management and Comptroller)______________ 76

Glossary___________________________________________________________________________________ 81
Acronyms and Abbreviations______________________________________________ 83




                                                                                      Report No. DODIG-2014-066│ v
                                                                                            Introduction




Introduction
Objective
Our objective was to determine whether the Logistics Modernization Program (LMP)
system Product Management Office (PMO) implemented the DoD Business Enterprise
Architecture (BEA) Budget-to-Report (B2R) business process to support the Army
Working Capital Fund (AWCF) Statement of Budgetary Resources (SBR). See Appendix A
for a discussion of the scope and methodology and Appendix B for prior audit coverage.
See the Glossary for definitions of technical terms used in this report.


Background
The Assistant Secretary of the Army (Financial Management and Comptroller)
(ASA[FM&C]) and the Army Materiel Command G-8 (Army financial managers) reported
to Congress that LMP would be the AWCF system solution for developing auditable
financial statements. LMP is an Enterprise Resource Planning (ERP) system to record
Army logistical and financial transactions. By September 30, 2013, the LMP PMO
completed system deployment to all but one AWCF business area activity. LMP replaced
the Standard Depot System and will replace the Commodity Command Standard System
in FY 2014, once LMP deploys to the Non-Army Managed Inventory activities.

ASA(FM&C) plans to develop LMP in two increments. The Milestone Decision Authority
designated the LMP deployment effort through December 28, 2011, as Increment
One. The LMP PMO will resolve existing deficiencies as part of Increment One. The
Defense Business Council designated LMP acquisition activities after December 2011 as
Increment Two. This increment will add functionality and convert LMP to Government
control. LMP Increment Two achieved the Business Capability Lifecycle Prototyping
Phase (Milestone B) on August 27, 2013.  The life-cycle cost estimate for LMP is
$4.1 billion. As of September 30, 2013, the Army spent approximately $1.8 billion of the
$4.1 billion.

The Deputy Chief Management Officer (DCMO) established the Standard Financial
Information Structure (SFIS) to achieve the financial data standardization required
to comply with the United States Government Standard General Ledger (USSGL).
Office of Management and Budget (OMB) Circular No. A-136 Revised (OMB A-136),
“Financial Reporting Requirements,” October 21, 2013, requires SBR preparation




                                                                               Report No. DODIG-2014-066 │ 1
Introduction



                  using primarily financial data reported from an activity’s budgetary general ledger
                  accounts.1 Therefore, LMP must contain reliable and SFIS compliant budgetary data
                  to report an accurate AWCF SBR.

                  This is the third in a series of DoD Office of Inspector General reports on LMP
                  functionality.          The first report, Report No. D-2011-015, “Insufficient Governance
                  Over Logistics Modernization Program System Development,” November 2, 2010,
                  concluded the Army failed to deliver a USSGL-compliant system.  The second
                  report, Report No. DODIG-2012-087, “Logistics Modernization Program System
                  Procure-to-Pay Process Did Not Correct Material Weaknesses,” May 29, 2012,
                  concluded Army financial managers did not implement the DoD BEA requirements
                  for the Procure-to-Pay business process and correct known material weaknesses. In
                  addition, Army managers did not review control activities to assess internal control
                  effectiveness, resulting in the use of costly manual business processes and LMP’s
                  failure to provide reliable financial data.


                  Roles and Responsibilities
                  The Office of the Under Secretary of Defense (Comptroller) (OUSD[C]) is responsible
                  for overseeing and monitoring ERP deployment efforts to achieve an audit-ready
                  system environment.  The DCMO is responsible for advising the Secretary of
                  Defense and Deputy Secretary of Defense on the management and improvement of
                  integrated business operations. In addition, the DCMO is responsible for defining,
                  optimizing, and implementing the end-to-end business processes, including the
                  integration of requirements and data standards. Managers working for the Deputy
                  Chief Financial Officer (DCFO managers) generate all financial management
                  content in the BEA. The Defense Finance and Accounting Service (DFAS) provides
                  departmental and field-level accounting services.

                  ASA(FM&C) is responsible for modernizing Army financial management systems
                  and processes and the integration of financial data and cost information. ASA(FM&C)
                  Financial Operations Directorate is responsible for Army financial management
                  policies, procedures, and programs; Army ERP systems; and internal control and
                  audit compliance.              The Army Office of Business Transformation acts under the
                  authority, direction, and control of the Secretary of the Army; reports directly to the
                  Army Chief Management Officer; and is the lead for business transformation efforts.
                  Both the Office of Business Transformation and ASA(FM&C) share the responsibility


                  	1	
                        The USSGL breaks down accounts into proprietary accounts (series 1000, 2000, 3000, 5000, 6000 and 7000), budgetary
                        accounts (series 4000), and memorandum accounts (series 8000).




2 │ Report No. DODIG-2014-066
                                                                                                                                 Introduction



for confirming that LMP activities implement the appropriate internal control
over financial business processes.                      The Army Program Executive Office Enterprise
Information Systems is responsible for the acquisition, development, and business
integration of enterprise information systems, which includes LMP PMO oversight.
Army Materiel Command is responsible for managing financial and logistical functions
within the two AWCF business areas (Supply Management and Industrial Operations).


Statement of Budgetary Resources Material Weakness
The Army’s FY 2013 Statement of Assurance reported 11 material weaknesses,
including those related to its financial management system and the AWCF SBR. The
Army stated it did not populate the SBR using data from the LMP budgetary accounts.
DFAS personnel continued to use budget execution data in status reports to make
adjustments because the accounting system incorrectly recorded budgetary accounts.
The Army established an FY 2015 target date to correct the SBR material weakness.
Public Law 111-84, “The National Defense Authorization Act for Fiscal Year 2010,”
Section 1003, “Audit readiness of financial statements of the Department of Defense,”
requires a validation that the AWCF Financial Statements, including its SBR, are
ready for audit no later than September 30, 2017.


DoD Business Enterprise Architecture
Annually, DCMO                   issues an updated DoD BEA version defining the business
transformation priorities, business capabilities required to support those priorities,
and enterprise systems combinations and initiatives to enable those capabilities.2
The BEA contains 15 standard, integrated and optimized end-to-end business
processes, including the B2R business process.                               The B2R business process is one
of the three BEA business processes that underwent validation and refinement for
which the requirements are mostly developed.                                 Future BEA releases will finalize
the remaining 12 business processes.

SFIS provides the BEA financial data standard and contains the DoD USSGL
transaction library (hereafter referred to as Transaction Library). The DoD Standard
Chart of Accounts (DoD SCOA), comprising the USSGL general ledger account codes
and DoD standard account extensions, provides the detail required for budgetary,
financial, and management reports.                         OUSD(C) Memorandum, “DoD Standard Chart
of Accounts in Standard Financial Information Structure (SFIS),” August 13, 2007,
directs the use of a DoD SCOA in the target general ledger systems.

	2	
      DCMO develops the annual BEA version to comply with Public Law 108-375, “Ronald W. Reagan National Defense
      Authorization Act for Fiscal Year 2005.” On February 14, 2013, the Office of Deputy Chief Management Officer delivered
      BEA Version 10.0 (BEA 10.0). BEA 10.0 did not significantly change the B2R business process, but it further refined it.



                                                                                                                    Report No. DODIG-2014-066 │ 3
Introduction



                  Budget-to-Report Business Process
                  The B2R business process encompasses functions necessary to plan, formulate, create,
                  execute, and report the budget. Figure 1 shows the B2R business flow related to the
                  eight phases of the BEA B2R business process.

                  Figure 1. BEA Version 9.0 B2R Business Flow




                  Source: DoD BEA 9.0

                  The 8 phases contained 23 business events and numerous process steps. See
                  Appendix C for a brief description of the 23 business events. DoD Financial
                  Management Regulation, volume 1, chapter 7, “United States Standard General Ledger,”
                  June 2009, states that the USSGL must be used in all DoD accounting systems
                  for all appropriations and funds.  The Transaction Library process breaks down
                  the USSGL accounting transactions for the B2R business process into individual
                  DoD transaction codes (DTCs).  The DTCs provide the appropriate pairings of
                  budgetary, proprietary, and memorandum general ledger accounts. Compliance with
                  OMB Circular No. A-127, “Financial Management Systems,” January 9, 2009,
                  requires the recording of approved transactions that generate appropriate pairings
                  of general ledger accounts for posting according to the USSGL business rules.


                  Budget Preparation, Submission, and Execution
                  OMB Circular No. A-11, “Preparation, Submission, and Execution of the Budget,”
                  August 3, 2012, (OMB A-11), identifies the basic laws for regulating the budget
                  process. OMB A-11 provides Federal managers guidance for preparing and submitting
                  agency budget requests and other required materials for OMB and Presidential
                  review. In addition, OMB A-11 provides instruction on budget execution, including
                  the apportionment and reapportionment processes, and how to report budget




4 │ Report No. DODIG-2014-066
                                                                                                                                  Introduction



execution and budgetary resources on the SF 133, “Report on Budget Execution and
Budgetary Resources.” Agencies submit an SF 133 for each expired and unexpired
Treasury Appropriation Fund Symbol.3


Annual Operating Budget Process
Annually, Army Budget Office (ABO) personnel submit a budget estimate to OUSD(C)
personnel requesting annual budget authority. This estimate includes:

            •	 appropriated authority to support such things as prepositioned stocks and
                war reserve materiel;

            •	 contract authority to support supply management activities, capital
                investment programs, and a variability target;4 and

            •	 spending authority for unobligated balances brought forward from previous
                years and anticipated new customer orders.

OUSD(C) personnel combine the Army’s request with the requests of other
Defense Working Capital Fund (DWCF) subcomponents and submit to OMB a
combined request for DWCF budget authority as part of the President’s Budget
sent to Congress. Once Congress approves the DWCF budget authority, OMB uses
Treasury Appropriation Fund Symbol 97X4930 to apportion the DWCF authority to
the OUSD(C) Revolving Funds Directorate, which assesses congressional and OMB
actions and transfers a portion of the appropriated budget authority to the five
DWCF subcomponents.5  OUSD(C) Revolving Funds Directorate personnel also
determine each subcomponent’s share of the approved apportionment and prepare
an Annual Operating Budget that allots the authority to the subcomponents, as
approved by the Director of Revolving Funds. These process steps occur during the
Distribute and Manage Budget Phase of the B2R business process.




	3	
     Treasury Appropriation Fund Symbol refers to the individual Treasury accounts established for each appropriation based on
     the availability of the resources in the account. It is a combination of Treasury Agency code, Federal account symbol, and
     availability code, such as annual, multi-year, or no-year funds.
	4	
     DoD Financial Management Regulation, volume 3, chapter 19, states that the variability target represents an amount of
     contract authority held in reserve by the OUSD(C) Revolving Funds Directorate to provide continuity of operations for
     fluctuations in customer orders due to contingency operations.
	 5	
     Each DWCF subcomponent receives a Treasury Appropriation Fund Symbol 97X4930.XXX. AWCF is designated
     97X4930.001.




                                                                                                                   Report No. DODIG-2014-066 │ 5
Introduction



                  Review of Internal Controls
                  DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
                  May  30,  2013, requires DoD organizations to implement a comprehensive system of
                  internal controls that provides reasonable assurance that programs are operating
                  as intended and to evaluate the effectiveness of the controls. We identified internal
                  control weaknesses in the ability of LMP to prepare the AWCF SBR. These occurred
                  because Army financial managers did not properly assess and implement SFIS
                  requirements and business processes necessary to comply with the B2R end-to-end
                  process.  In addition, OUSD(C) personnel did not provide information concerning
                  the preparation, submission, and approval of the DWCF apportionment to Army
                  personnel for accurate and timely recording in the AWCF general ledger, because
                  they did not perform the needed reengineering and develop procedures for operating
                  in an ERP environment. We will provide a copy of the report to the DoD and Army
                  senior officials responsible for internal controls.




6 │ Report No. DODIG-2014-066
                                                                                               Finding A




Finding A
System Functionality Incorrectly Distributed, Executed,
and Reported Budget Authority
LMP did not contain the B2R business process functionality to prepare the AWCF
SBR.     Specifically, LMP lacked the necessary functionality to accomplish 18 of the
23 business events in the B2R business process correctly.       This occurred because
Army financial managers did not perform sufficient business process reengineering
to implement the B2R business process.  In addition, DCFO managers did not
provide sufficient oversight to certify that Army financial managers complied
with the Transaction Library requirements for recording budgetary transactions.
DCFO managers took almost 6 years to agree on the baseline of the DoD SCOA
accounts applicable to the AWCF activities.

As a result, Army financial managers, despite spending more than $1.8 billion on
implementing the system, cannot rely on the LMP trial balance data to prepare the
AWCF SBR and other budgetary reports needed to manage AWCF budget execution.
Instead, DFAS personnel must perform extensive manual adjustments, totaling
$22.8 billion, and journal vouchers, totaling $18.2 billion, to prepare the required
reports. Unless Army financial managers implement the correct Transaction Library
in LMP to record transactional data correctly, it is unlikely they will achieve audit
ready AWCF financial statements by FY 2017.



System Did Not Contain Required Budget-to-Report
Business Process
Army financial managers did not develop the LMP
                                                                        Army
functionality needed to accomplish the B2R business
                                                                      financial
process.  The B2R business process contains eight               managers did not
phases. Six of these require Army financial managers           correctly assess and
                                                             develop requirements to
to perform an assessment for the business process
                                                               accomplish 18 of the
requirements, accomplish any required business                23 business events for
process reengineering, and develop the requirements              the remaining six
needed for the LMP PMO to configure LMP.            The                phases.
first two phases of the process contain no business
events    requiring   system   configuration.    Army   financial
managers did not correctly assess and develop requirements to accomplish



                                                                              Report No. DODIG-2014-066 │ 7
Finding A



                  18 of the 23 business events for the remaining six phases.6                                                 This finding
                  predominately             addresses          problems          with       two       phases        of     the      business
                  process — Distribute and Manage Budget Phase and Manage General Ledger
                  Transactions Phase.                 Specifically, LMP did not contain all the functionality to
                  perform the nine applicable business events in these two phases.                                            Functionality
                  also did not exist to accomplish nine business events in the remaining four phases
                  that relate mostly to the other BEA end-to-end business processes, primarily the
                  Order-to-Cash and Procure-to-Pay business processes.

                  Report No. DODIG-2012-087 previously found significant problems with how the
                  Army configured the LMP Procure-to-Pay business process.                                       These problems also
                  impair how LMP accomplishes the B2R business process. Appendix C describes each
                  of the 23 business events and provides details on the problems.


                  System Configuration Cannot Accomplish the Distribute and
                  Manage Budget Phase
                  Army financial managers did not provide correct requirements for configuring LMP to
                  accomplish the Distribute and Manage Budget Phase.  This phase contains six AWCF
                  applicable business events used to establish and manage budget authority. LMP lacked
                  functionality to perform four of the business events and can perform only some of the
                  functionality of the other two business events. Figure 2 shows the four business events
                  (denoted in blue boxes) not implemented and the two business events (denoted in green
                  boxes) partially implemented in the Distribute and Manage Budget Phase.

                  Figure 2. Implementation Status of the Business Events in Distribute and Manage Budget Phase




                  Source: Auditor analysis based on BEA 10.0

                  	6	
                        Of the 23 business events, 5 were not applicable to AWCF and do not require the LMP functionality. See Appendix C for
                        more details.

8 │Report No. DODIG-2014-066
                                                                                                               Finding A



OUSD(C) provides activities, such as the AWCF, with budget authority in the form of
appropriated funds, contract authority, and spending authority.                  Historically, Army
financial managers established and distributed AWCF budget authority outside of
the accounting system and only began recording data to the general ledger accounts
once they received allotted funds. Table 1 identifies, by type of budget authority, the
dollar value of AWCF budget authority apportioned and allotted, recorded in LMP, and
reported on the SBR as of March 31, 2013.

Table 1. AWCF Budget Authority as of March 31, 2013 (in Millions)
                                                         Allotted
                        DoD SCOA       Apportioned       (Annual          Recorded     Reported on
  Budget Authority       Account         (SF 132)       Operating          in LMP        the SBR
                                                         Budget)
 Appropriated Funds           4170           $42.6           $42.6            $68.8           $102.6
 Contract Authority           4032         7,293.4         7,042.9          6,970.9           7,353.6*
 Spending Authority           4210         5,965.2         6,095.6          6,069.4           6,055.1
   Totals                                $13,301.2      $13,181.1         $13,109.1         $13,511.3

*	The amount includes the automatic reapportionment of contract authority recovered from prior		
	 year obligations not identified on SF 132.

Army financial managers did not develop the LMP requirements to configure the
DTCs needed to accomplish all aspects of the funds-distribution-process, causing
differences in the amounts recorded as budget authority. Army financial managers
did not understand the significance of not using the DTCs from the Transaction
Library for maintaining an accurate general ledger throughout the business process.
Consequently, the LMP PMO did not configure the system using the correct Transaction
Library DTCs for recording the apportionment, allotment, and suballotment processes.
The Transaction Library defines the requirements for accomplishing the three
funds-distribution-process steps that would:

            •	 establish budget authority in the appropriate budget resource accounts
              and DoD SCOA account 445000.9000, “Unapportioned Authority,” based on
              annual congressional actions;

            •	 record the OMB approval of apportioned authority in DoD SCOA
              account    451000.9000,       “Apportionments,”        or    DoD       SCOA     account
              459000.9000, “Apportionments–Anticipated Resources–Programs Subject
              to Apportionment;” and

            •	 allot funding to the DWCF activities using DoD SCOA account 461000.9000,
              “Allotments — Realized Resources.”



                                                                                              Report No. DODIG-2014-066 │ 9
Finding A



                  Once a DWCF activity receives an allotment, it can then suballot that authority using
                  the DoD unique accounts provided in the DoD SCOA account 454000-458000 series.
                  However, Army financial managers did not provide the correct requirements to
                  configure LMP to accomplish the individual DTCs as each process step occurred. Instead,
                  they directed the LMP PMO to configure LMP to bypass the recording of these individual
                  process steps and developed LMP posting logic that recorded only the end effect of
                  the AWCF receiving its allotment.

                  This prevented the system from providing an audit trail showing the establishment of
                  the unapportioned authority and AWCF budget authority transition to an apportioned
                  status and an allotted status based on the Transaction Library DTCs.       As we will
                  discuss in Finding B, OUSD(C) personnel did not provide the documentation that ABO
                  personnel require to record the business events related to the Distribute and Manage
                  Budget Phase.

                  Army financial managers admitted that they did not develop LMP functionality to
                  establish unapportioned budgetary authority using DoD SCOA account 445000.9000,
                  as required in the Transaction Library.     However, LMP requires this account to
                  establish, execute, close, and carry forward all its budget authority and to report the
                  correct balance on the SBR and SF 133, Line 1000, “Unobligated Balance Brought
                  Forward, October 1.”    Consequently, as of March 31, 2013, the LMP trial balance
                  reported an abnormal balance of $11.4 billion in DoD SCOA account 445000.9000.

                  The following paragraphs describe how LMP’s inability to execute the correct general
                  ledger postings, as defined in the Transaction Library, for distributing and managing
                  the three types of AWCF budget authority prevented the proper execution of the
                  business events associated with the Distribute and Manage Budget Phase.


                  System Does Not Manage Appropriated Funds Properly
                  Army financial managers did not accurately configure the LMP general ledger to
                  establish and distribute AWCF appropriated funds. The FY 2013 DoD SCOA identified
                  five general ledger accounts related to establishing, distributing, and reducing AWCF
                  appropriated funds. However, the LMP Chart of Accounts did not contain four of the
                  five accounts. For example, the Execute Apportionment and Allocate Funds business
                  event required LMP to record the establishment of AWCF appropriated funding using
                  DoD SCOA account 417000.3102, “Transfers–Current-Year Authority Transfers In.”
                  The AWCF received its annual appropriation amounts from the DWCF as a transfer
                  using the SF 1151, “Nonexpenditure Transfer of Funds.”         Using this process to
                  establish appropriated funding requires the posting of DTCs as described in



10 │Report No. DODIG-2014-066
                                                                                                     Finding A



Appendix C, under the Execute Apportionment and Allocate Funds business event.
However, Army financial managers did not provide requirements to the LMP PMO to
properly configure the accounts in LMP.

Similarly, LMP could not accomplish the Execute Continuing Resolution business
event, which provides the annualized appropriation amount applicable to the AWCF
under a continuing resolution.          See the Execute Continuing Resolution section of
Appendix C for the DTCs and accounting entries needed to configure this business
event.  Appendix D, Table D-1, identifies applicable information about the
DoD SCOA accounts and DTCs related to establishing and distributing AWCF
appropriated funds.


Configuration Did Not Establish and Manage Contract Authority
Army   financial    managers      did    not   configure    the   LMP   general   ledger     to
correctly establish and manage AWCF contract authority.                 The FY 2013 DoD
SCOA identified nine DoD SCOA accounts related to establishing, distributing, and
executing contract authority.      The LMP Chart of Accounts
contains the nine accounts.       However, Army financial
managers did not accomplish the business process                         Army
reengineering required to support 18 of 34 DTCs                        financial
                                                                  managers did not
required to record those accounts. Specifically,                provide the LMP PMO
they did not provide the LMP PMO the correct                 the correct requirements to
requirements   to     configure   the     system    to      configure the system to record
                                                             the three separate business
record the three separate business events that
                                                             events that would establish,
would establish, apportion, and allot AWCF                       apportion, and allot
contract authority.     Instead, they directed the                 AWCF contract
                                                                       authority.
LMP PMO to configure the system to record a
nonstandard business event consisting of part of the
first event and part of the third event.           Specifically, LMP
recorded contract authority by debiting DoD SCOA account 403200.9000, “Estimated
Indefinite Contract Authority,” and crediting either DoD SCOA account 451000.9000
or DoD SCOA account 461000.9000. This accounting entry bypassed the required
Transaction Library accounting entries and did not record the establishment of
contract authority as Unapportioned Authority using DTC A176-001-01 or the
OMB apportionment of that authority using DTC A116-001-01. It also incorrectly
recorded the suballotment of authority in DoD SCOA account 451000.9000 for
amounts already allotted to the AWCF.          Appendix D identifies LMP’s capability to
accomplish DTCs by DoD SCOA account.




                                                                                   Report No. DODIG-2014-066 │ 11
Finding A



                  Furthermore, the withdrawal and liquidation of contract authority requirements
                  provided to LMP PMO did not align with the Transaction Library. The Annual Operating
                  Budget provided authority to automatically reapportion and reuse AWCF contract
                  authority recovered from prior-year obligations. Based on this authority, ABO personnel
                  should accomplish DTCs within LMP to establish, apportion, and allot the reapportioned
                  authority and withdraw the old contract authority, as described in Appendix C, in the
                  Execute Apportionment and Allocate Funds section. Instead, Army financial managers
                  provided the LMP PMO incorrect requirements that configured LMP to recover and
                  withdraw contract authority using a single accounting entry that bypassed the required
                  Transaction Library DTCs.     Army financial managers did not believe they needed
                  to record the individual DTCs and instead recorded the end effect of the multiple
                  transactions. This prevented ABO personnel from recognizing the amounts withdrawn
                  and preparing documentation to support the establishment of new contract authority.
                  See Appendix C, Manage Liabilities section, for the proper posting logic for establishing
                  new contract authority.

                  LMP also did not contain the proper DTCs for contract authority liquidation.          As
                  of March 31, 2013, the LMP trial balance did not report any amount in DoD SCOA
                  account 413500.9000, “Contract Authority Liquidated.” This showed that the LMP
                  configuration did not record the proper DTCs and resulted in DFAS personnel
                  having to estimate the liquidated amounts and prepare journal vouchers in the
                  Defense Departmental Reporting System (DDRS) to record the amounts.  Appendix D,
                  Table D-2, identifies the applicable DoD SCOA accounts and their status in LMP as well as
                  the status of implementing the DTCs related to contract authority.


                  Spending Authority Requirements Not Properly Determined
                  LMP did not contain the configuration needed for posting accurate general ledger
                  data to administer spending authority. The LMP Chart of Accounts did not contain
                  7 of the 10 accounts related to spending authority. Consequently, the LMP PMO could
                  not develop the posting logic needed to accomplish the 10 DTCs that support those
                  accounts. In addition, LMP did not contain the functionality to accomplish the posting
                  logic associated with 28 other DTCs. Army financial managers incorrectly configured
                  LMP to post the end effect of multiple business events, which disregarded accounting
                  for the status of unapportioned authority and ignored the occurrence of specific
                  business events.

                  For example, LMP did not configure the DTCs required to establish the amount of
                  unapportioned spending authority provided to the AWCF (DTC A702-001-01) or
                  record the OMB-approved SF 132, “Apportionment and Reapportionment Schedule,”



12 │Report No. DODIG-2014-066
                                                                                                                                   Finding A



(DTC A118-001-01).                 Instead, Army financial managers directed the LMP PMO to
configure the system to debit DoD SCOA account 421000.9000, “Anticipated
Reimbursements and Other Income,” and credit DoD SCOA account 459000.9000,
bypassing those business events.                        Since OMB can withhold or rescind spending
authority, bypassing the initial recording of the unapportioned authority may not
accurately reflect the status of those resources.                            Appendix D, Table D-3, identifies
the applicable DoD SCOA accounts and their status in LMP as well as the status of
implementing the DTCs related to spending authority.

According to OMB A-11, OMB apportions spending authority to activities; however,
they cannot realize the authority until receipt of funded customer orders. Therefore,
upon establishment of a customer order using DTC A706-001-01, LMP should
simultaneously allot and apportion spending authority by using DTCs A122-001-01 and
A122-002-01. As a result, the account balances for DoD SCOA accounts 421000.9000
and 459000.9000 should remain equal, unless a portion of the anticipated authority
remained unapportioned. As of March 31, 2013, because none of the authority was
unapportioned, there was a $26.1 million difference between the two accounts,
indicating a potential LMP configuration problem.


Incomplete Requirements in Manage General Ledger
Transactions Phase
LMP did not contain the DTCs needed to correctly close out the budgetary accounts in the
Manage General Ledger Transactions Phase. The monthly and annual closing processes
provided the data needed to prepare the SF 133 and SBR and to develop LMP ending
and beginning balances. The Transaction Library divided closing entry DTCs between
pre-closing and closing entries. To accomplish the F100-F299 DTCs as pre-closing
entries, LMP should accomplish the DTCs in accounting period 12 and accomplish the
remaining F-series DTCs, to close any remaining budgetary accounts, in accounting
periods 13-16.7 However, Army financial managers did not develop a year-end closing
plan that would allow the use of the LMP trial balance data to support the preparation
of SF 133 and SBR.                   Figure 3 shows the two business events not implemented
and the one business event partially implemented in the Manage General Ledger
Transactions Phase.




	 7	
       LMP contains accounting periods 0-16. Accounting period zero provided the fiscal year beginning balances. Accounting
       periods 1–12 provided accounting for the months of October through September. The system uses accounting
       periods 13–16 to perform closing entries and develop the year-end trial balances.




                                                                                                                 Report No. DODIG-2014-066 │ 13
Finding A



                  Figure 3. Implementation Status of the Manage General Ledger Transactions Phase




                  Source: Auditor analysis based on BEA 10.0

                  For example, LMP did not record DTCs F112 and F113 correctly to adjust for
                  anticipated resources not realized and to reduce unobligated balances at year-end
                  for contract authority. A properly configured system should be able to reduce the
                  amounts in unobligated balance accounts to reflect only the amounts Army financial
                  managers intended to carry forward at year-end. Army financial managers could then
                  configure the system to close out the remaining unobligated balances to DoD SCOA
                  account 445000.9000 using DTC F308.          However, the improper configuration of
                  the LMP pre-closing and closing DTCs caused DoD SCOA accounts 461000.9000
                  and 470000.9000, “Commitments–Programs Subject to Apportionment,” to report
                  a combined $4.4 billion balance at year-end, rather than closing those accounts into
                  DoD SCOA account 445000.9000 at year-end. See Appendix C for additional details
                  on the incorrect implementation of the business events.


                  Budget Authority Execution Requirement Not Defined
                  Army financial managers did not provide the LMP PMO the proper requirements
                  to configure the system to execute AWCF budget authority. A majority of the DTCs
                  related to the execution of AWCF budget authority supported the Manage Financial
                  Assets and Liabilities and Perform Treasury Operations Phases. They also supported the
                  Order-to-Cash and Procure-to-Pay BEA business processes. Figure 4 shows the three
                  business events partially implemented and the one business event not implemented
                  in Manage Financial Assets and Liabilities Phase.




14 │Report No. DODIG-2014-066
                                                                                              Finding A



Figure 4. Status of the Manage Financial Assets and Liabilities Phase




Source: Auditor analysis based on BEA 10.0

Likewise, Figure 5 shows the three business events LMP did not implement related
to the Perform Treasury Operations Phase. Army financial managers did not accomplish
the reengineering needed to integrate the Treasury reconciliation function into LMP
or provide the capability to receive cash management files directly from Treasury and
reconcile them.

Figure 5. Status of the Perform Treasury Operations Phase




Source: Auditor analysis based on BEA 10.0




                                                                            Report No. DODIG-2014-066 │ 15
Finding A




                  The FY 2013 DoD SCOA identified 33 DoD SCOA accounts applicable to the execution
                  of AWCF budget authority.       However, the LMP Chart of Accounts did not contain
                  10 of the 33 accounts.        Consequently, LMP did not contain the posting logic to
                  accomplish the 20 DTCs to support those 10 accounts. In addition, LMP PMO could
                  not demonstrate the posting logic associated with 571 other DTCs supporting the
                  remaining 23 accounts.        Appendix D, Table D-4, identifies the applicable DoD
                  SCOA accounts and their status in LMP as well as the status of implementing the
                  DTCs related to execution of budget authority.


                  Business Process Reengineering Not Sufficient to
                  Implement Business Process
                                       Army financial managers did not perform the business
                                                process reengineering needed to implement the B2R
                               Army               end-to-end business process.  Industry best practices
                             financial              suggest the use of business process reengineering
                         managers did not
                       perform the business          when     implementing     new    business       processes
                     process reengineering to        or    information    systems.        Business    process
                      determine which DTCs           reengineering requires the analysis and design of
                     LMP needed to perform
                                                     workflows and processes within an organization.
                         the B2R business
                              process.              Public Law 111-84, “National Defense Authorization
                                                  Act for Fiscal Year 2010,” Section 1072, “Business
                                             Process Reengineering,” October 28, 2009, mandates the
                  review of business process reengineering.  This requires organizations to assess
                  their business processes and reengineer the LMP posting logic to incorporate
                  the new standard data structure contained in the Transaction Library.  The
                  OUSD(C)       memorandum      directed   transaction   alignment   to   the   DoD     USSGL
                  Transaction Library as part of SFIS implementation and issued the first detailed
                  transaction format in 2007.

                  Army financial managers did not perform the business process reengineering to determine
                  which DTCs LMP needed to perform the B2R business process. The Army completed
                  LMP fielding in October 2010. However, system requirements continued to evolve
                  with each BEA version since FY 2006. In FY 2012, in response to previous DoD Office
                  of Inspector General audit reports, Army financial managers tried to provide the LMP
                  PMO system requirements for implementing portions of the budget process.  However,




16 │Report No. DODIG-2014-066
                                                                                                     Finding A



ASA(FM&C) personnel informed us they did not use the Transaction Library when
developing those requirements.        They did not have a sufficient understanding
of the requirement for configuring LMP to use only the DTCs in the Transaction
Library, as mandated for new targeted accounting systems, and therefore did
not perform the reengineering to populate the correct DTCs as transactions occurred.

In June 2012, Defense Chief Management Officer published guidance directing the
Pre-Certification Authority to determine if information system investments were BEA
compliant.   Prior to requesting certification, the Pre-Certification Authority should
ascertain that the program offices undertook sufficient reengineering efforts to
streamline business processes, reduce the need to tailor systems to meet unique
requirements, and incorporate unique interfaces to the maximum extent practicable.

On June 13, 2013, the Army Chief Management Officer, as the Pre-Certification
Authority, certified that LMP complied with BEA version 10.0 and the Army
accomplished the required business process reengineering.  However, he did not
confirm that the LMP PMO implemented the correct Transaction Library DTCs. The
certification package submitted indicates that both the Distribute and Manage
Budget and Manage General Ledger Transactions Phases are compliant.  However,
the LMP PMO did not implement all the DTCs needed for six of the business events
and partially implemented three other business events in those phases.

Neither the Army’s Office of Business Transformation nor ASA(FM&C) personnel
validated the implementation of the Transaction Library.              Office of Business
Transformation personnel stated that their function was to compile, not validate,
the requirements and pass the information to Defense Chief Management Officer.
However, Public Law 111-84 required the Army Chief Management Officer to do
more than just compile information.       The Public Law required a determination
as to whether or not LMP was in compliance with the BEA and the Army had
undertaken   appropriate   business     process   reengineering     efforts.    Additionally,

ASA(FM&C) personnel acknowledged they did not conduct a Transaction Library
review to facilitate business process reengineering.  Although the DoD Financial
Management Regulation (FMR) mandated the use of the Transaction Library
DTCs, neither office recognized the need to validate the proper implementation
of the Transaction Library, and DCMO managers did not require it.

Army financial managers stated they could not attest to the accuracy of the SBR
but that they began working with the Army’s audit readiness team to identify
the actions required to correct known material weaknesses and put these




                                                                                   Report No. DODIG-2014-066 │ 17
Finding A



                  actions into a comprehensive plan of action and milestones. As part of this effort,
                  the ASA(FM&C), in coordination with Army Materiel Command G-8, should perform
                  a comprehensive business process reengineering effort that validates and certifies
                  that LMP functionality aligns with the Transaction Library, applicable BEA business
                  events, and DoD SCOA accounts for the B2R business process.


                  System Reengineering Needed to Integrate Manual Processes
                  and Workarounds
                  Army financial managers did not assess the manual processes and workarounds
                  developed to support their legacy accounting systems and conduct the reengineering
                                            needed to incorporate those processes in LMP.           During
                                Army             LMP development, they did not determine how to
                              financial              incorporate existing manual processes and reduce
                           managers also              interfaces.   Army financial managers stated they
                         could not provide
                                                       took actions to implement the B2R process but
                          documentation
                      supporting their use of          could not substantiate that they conducted a
                      the Transaction Library          comprehensive review of the 23 business events.
                        in developing B2R             They also could not provide documentation supporting
                           requirements.
                                                     their use of the Transaction Library in developing
                                                B2R requirements. For example, they did not reengineer
                                          LMP to implement the Perform Treasury Operations Phase.
                  Army financial managers continued to use legacy cash management business processes to
                  accomplish the Manage Disbursements, Manage Collections, and Manage Execution with
                  Treasury business events instead of conducting the reengineering needed to integrate
                  these business events into LMP. On August 31, 2012, the Office of Deputy Chief Management
                  Officer issued guidance on DoD’s Delinquent Debt Management process and directed
                  DoD Components to incorporate the process into their ERP systems as part of the system
                  implementation strategy. Although the Delinquent Debt Management process was part of the
                  B2R business process within the Manage Financial Assets and Liabilities Phase,
                  Army financial managers did not initiate actions to perform the business process
                  reengineering required to incorporate the debt management process as part of
                  LMP. Opportunities for business process reengineering also existed in the Manage
                  Financial Assets and Liabilities and Manage General Ledger Transaction Phases. (See
                  Appendix D for further details.)

                  The reengineered processes should develop the LMP functionality to directly receive
                  Department of Treasury disbursement and collection files and post the corresponding
                  LMP general ledger transactions, including any undistributed transactions. Instead,




18 │Report No. DODIG-2014-066
                                                                                                   Finding A



LMP continued to receive data from legacy processes that DFAS personnel must
reconcile before posting to the LMP general ledger. Army financial managers also
should reengineer the delinquent debt-management process and cease recording
debt-related transactions outside the system.  These nonintegrated processes caused
DFAS personnel to prepare journal vouchers to reconcile budgetary amounts to
the proprietary accounts, record undistributed disbursements and collections,
and reconcile and eliminate intragovernmental transactions within DDRS.               Army
financial managers need to investigate the root causes of each manual process
and workaround related to the B2R business process.  They must then develop the
reengineering plan for implementing the LMP functionality to record the data
correctly within the system’s general ledger.


Performing an Assessment of DTC Requirements
Army financial managers did not determine the applicability of the DoD SCOA or
the Transaction Library DTCs when developing LMP requirements. In 2011, Army
financial managers completed a review to determine the applicability of DoD SCOA
and Transaction Library DTCs to AWCF business activities. However, they did not
perform the comprehensive assessment needed to develop the correct system
requirements for implementing the DoD SCOA and Transaction Library DTCs required
to record B2R transactional data. Army financial managers did not understand they
needed to perform a comprehensive assessment of the business events and determine
the relevancy of each of the DTCs.       Examples of incorrect requirements included:

         •	 establishing    AWCF       appropriated   funding      using   DoD        SCOA
           account 411900.9000, “Other Appropriations Realized.” However, because
           the AWCF actually received its appropriated funding as a nonexpenditure
           transfer from the DWCF, the recording of DoD SCOA account 411900.9000
           should occur only in the accounting system supporting Treasury
           Appropriation     Fund   Symbol      97X4930.    Once   established   in    that
           accounting system of record, funding should then transfer to LMP using
           DTC A484-001-01.

         •	 managing the AWCF contract authority. They did not develop the correct
           requirements for LMP to administer contract authority from enactment
           through year-end closing.

         •	 establishing and distributing the AWCF spending authority.




                                                                                 Report No. DODIG-2014-066 │ 19
Finding A



                  As a result, the LMP PMO did not properly configure LMP to record AWCF budgetary
                  transactions.

                  In February and March 2013, the Army financial managers assessed the DoD SCOA and
                  determined which accounts they needed to configure in the LMP general ledger. Based
                  on that assessment, they developed the system change requests that will implement
                  the missing DoD SCOA accounts identified. As part of this effort, ASA(FM&C) should
                  document and certify a comprehensive review of AWCF business activities that
                  baselines the DTCs and general ledger accounts needed for recording the LMP B2R
                  business process. They then should develop the system requirements for and request
                  funding from the Defense Business Council to implement the B2R within LMP correctly.

                  In addition, Army financial managers did not properly assess each of the DTCs
                  contained in the account closing process to provide the LMP PMO with the correct
                  requirements for closing each general ledger account.        In FY 2012, many of the
                  closed accounts reflected incorrect or abnormal balances.           Discussions with
                  LMP PMO, ASA(FM&C), and DFAS personnel about the period-end closing process
                  revealed that the process in place for FY 2012 did not properly execute the
                  Transaction Library DTCs.      Only 6 of the 22 pre-closing DTCs contained evidence
                  supporting proper implementation.       For the remaining 16 DTCs, Army financial
                  managers could not provide evidence of proper implementation. ASA(FM&C) needs
                  to develop a plan to accomplish the required pre-closing transactions necessary to
                  support the preparation of the SF 133 and SBR at year-end.


                  Oversight Needed to Certify Standard Financial
                  Information Structure Compliance
                  DCFO and DCMO managers did not provide sufficient oversight of LMP development
                  to confirm that the system contained the required functionality to populate the
                  SBR.    DCFO and DCMO managers were responsible for ensuring newly developed
                  ERP systems complied with Federal financial management requirements, Federal
                  accounting standards, the USSGL, and other DoD financial requirements. However,
                  they allowed Army financial managers to complete LMP development without the
                  functionality to support BEA end-to-end processes, including the B2R business
                  process.      The USSGL has required the posting of specific general ledger accounts
                  using specific posting logic since before the development of the DoD SCOA in 2007.
                  Although we recognize that DCFO and DCMO managers have made significant
                  progress in providing guidance and oversight since then, they did not develop
                  procedures to validate whether the LMP PMO actually implemented the DoD
                  SCOA and Transaction Library policies.      Report No. DODIG-2013-057, “Enterprise


20 │Report No. DODIG-2014-066
                                                                                                                                        Finding A



Business System Was Not Configured to Implement the United States Government
Standard General Ledger at the Transaction Level,” March 20, 2013, identified the
need for DoD managers to develop a more comprehensive validation process for
demonstrating that program managers implemented the correct DoD SCOA in
ERP systems.

On June 3, 2013, the Deputy Chief Financial Officer issued additional policy requiring
that financial systems process transactions using the DoD SCOA and attributes
according to the defined Transaction Library. The policy also directed that financial
managers make every effort not to group multiple DTCs into one transactional
posting, so that each business event posts separately and does not bypass the
individual transactions needed to support the business process. Therefore, LMP must
incorporate, at a minimum, the DoD SCOA accounts and DTCs applicable to AWCF
business processes and transactions. The policy allowed Army financial managers
to request a waiver for accounts not associated with the system’s business processes
and transactions. Army financial managers had already completed a full assessment
of the DoD SCOA accounts and submitted a request for exemption in April 2013
from configuring 17 budgetary accounts in LMP that they determined were not
applicable to AWCF business activities.

On July 19, 2013, the Director, Business Integration Office, OUSD(C), issued a
memorandum to the Deputy Assistant Secretary of the Army (Financial Operations)
agreeing that the 17 budgetary accounts were no longer applicable to working
capital fund activities. He also identified an additional 12 budgetary accounts that
were not applicable to AWCF.                         Appendix D, Tables D-1 through D-4, identify the
57 baselined budgetary accounts that the LMP PMO needed to configure and
their status in LMP.8

From August 2007, when the OUSD(C) first required
DoD          SCOA       implementation,              until      July     19,      2013,
nearly           6      years        later,       when          the       Director,               For nearly 6
Business Integration Office, finally approved an LMP                                            years, the DCFO
baseline of general ledger accounts, the DCFO and Army                                         and Army financial
                                                                                            managers did not reach a
financial managers did not reach a decision on the
                                                                                             decision on the correct
correct LMP configuration requirements.  During the                                            LMP configuration
audit, we made multiple attempts to baseline these                                               requirements.
requirements with personnel from ASA(FM&C) and

	 8	
       The FY 2013 Transaction Library included 79 DoD SCOA budgetary accounts that DCFO managers identified as applicable
       to the working capital fund activities. Based on the response from the Director, Business Integration Office, to the Army’s
       exemption request and meetings held with DCFO and Army financial managers, LMP PMO can reduce and baseline the
       revised number of DoD SCOA budgetary accounts at 57. See Appendix D for additional details.

                                                                                                                      Report No. DODIG-2014-066 │ 21
Finding A



                  DCFO managers but continually received conflicting requirements as to which budgetary
                  accounts DoD actually required in LMP. DCFO’s and Army financial managers’ inability
                  to determine the proper system requirements hindered proper system configuration
                  by the LMP PMO. DCFO and Army financial managers must still take steps to make
                  sure they provide the LMP PMO requirements to support the configuration of all
                  DTCs needed to populate those accounts.  The DCFO should approve the baseline
                  configuration of the LMP B2R business process based on Army certification that the
                  Army has implemented the appropriate Transaction Library transactions for recording
                  AWCF budgetary accounts.

                  BEA 9.0 provided implementation guidance on the B2R business process. However, DCFO
                  managers did not adequately identify which DTCs a system manager should
                  implement to accomplish each of the 23 business events contained in the process. In
                  BEA 10.0, released inMarch 2013, the Deputy Chief Management Officer added DTCs
                  to the supporting information available for the 23 business events. However, DCFO
                  managers did not associate the DTCs to each of the 23 business events where the
                  transaction actually would occur.        Several business events had no process step
                  developed for posting the accounting entries.         Instead, DCFO managers added the
                  DTCs to process steps supporting other business events.                For example, BEA
                  10.0    identified   the   specific   DTCs   needed    during   the   Execute   Continuing
                  Resolution business event (DTCs A196-A199), but the business event in Operational
                  View 6c models did not contain a process step in the proper business event for
                  posting the accounts. Instead, they added those DTCs to process step supporting the
                  Execute Apportionment and Allocate Funds business event.

                  Army financial managers had not independently assessed the business model
                  processes to determine how or whether to implement each of the DTCs. However,
                  DCFO and DCMO managers should have identified how each of the DTCs related to
                  specific business events and process steps to assist system managers in understanding
                  the need to configure those DTCs. In many instances, the DTCs needed to support
                  a specific business event were included in process step related to a different business
                  event. DCMO personnel stated that since BEA 6.0, they have aligned the DTCs to
                  the applicable BEA process steps that describe where transactions were executed
                  within a business event as described by in Operational View 6c model. However, they
                  recognized that mapping DTCs at a specific and more detailed level would require a
                  redefinition of multiple processes, including recognition of applicable general ledger
                  impact for each business event. The DCFO and DCMO needs to extend the current DTC
                  alignment within the BEA by expanding current definitions of business process steps to
                  a sufficient level that allows for DTC mapping at the specific detailed process step level.



22 │Report No. DODIG-2014-066
                                                                                                 Finding A



Trial Balance Data Do Not Support the Statement of
Budgetary Resources
Army financial managers cannot use the LMP trial balance data to develop the
AWCF SBR without making significant adjustments.               In
December 2012, they began using LMP trial balance
data to create the SBR, instead of continuing the
use of legacy budgetary status data. However, the               LMP reported
                                                             inaccurate amounts
incorrect DTC implementation in LMP resulted                  for general ledger
in trial balance data that did reflect accurate            accounts supporting the
budget authority execution.     As of March 31,         SBR, which required the need
                                                         for more than $41 billion in
2013, LMP reported inaccurate amounts for
                                                            DDRS adjustments and
general ledger accounts supporting the SBR,                   journal vouchers.
which required the need for more than $41 billion in
DDRS adjustments and journal vouchers.

Army financial managers stated they were aware of many of the LMP accounting and
posting logic problems that affected the account balances; however, they did not analyze
the dollar variances. For example:

        •	 An $11.4 billion difference existed between the accounts supporting Total
           Budgetary Resources (Line 1910) and the Status of Budgetary Resources
           (Line 2500).

        •	 A $7.4 billion difference existed between the LMP accounts supporting SBR
           Line 1000 and what actually the SBR reported. Three DoD SCOA accounts
           used to support SBR Line 1000 continually reported abnormal balances.
           The SBR published for September 30, 2012, reported $434 million in
           unobligated balances carried forward at year-end; however, the supporting
           LMP trial balance data contained abnormal balances totaling more than
           $16.3 billion in the closed general ledger accounts, including:

                  °° A $11.4 billion debit balance in DoD SCOA account 445000.9000;

                  °° A $4.3 billion credit balance in DoD SCOA account 413900.9000,
                     “Contract Authority Carried Forward;” and

                  °° A $603.9 million credit balance in DoD SCOA account 420100.9000,
                     “Total Actual Resources–Collected.”




                                                                               Report No. DODIG-2014-066 │ 23
Finding A



                  The Army financial managers did not identify the root cause or take the actions needed
                  to correct system functionality to address these abnormal balances. The abnormal
                  balances indicate either that they implemented the incorrect LMP functionality or that
                  the AWCF violated the Antideficiency Act. ASA(FM&C) should direct AWCF activities to
                  conduct an immediate investigation as to whether abnormal balances in unobligated
                  accounts represent a funding violation.

                  Appendix E identifies, by line, the variances between the amounts reported on
                  the SBR and the LMP trial balance data used to calculate each SBR line item as of
                  March 31, 2013.  Army financial managers stated they did not analyze these
                  differences because:

                                •	 AWCF activities did not summarize feeder data used to prepare the trial
                                  balances so they could analyze the lines that comprise the SBR;

                                •	 LMP did not produce a monthly SF 133 report; and

                                •	 Departmental-level adjustments were not in the source system.

                  DFAS personnel provided us data that supported the dollar variances between the
                  AWCF SBR and the LMP trial balance. This support included approximately $22.8 billion
                  in beginning balance and other manual adjustments that Army financial managers did
                  not reconcile and record into LMP. The adjustments included at least:

                                •	 $8.9 billion in data from legacy systems that Army financial managers
                                  should eliminate or reconcile and migrate into LMP;

                                •	 $6.8 billion in Commodity Command Standard System activity related to the
                                  future transition of one AWCF activity to LMP in FY 2014;

                                •	 $4.7 billion in beginning balance adjustments that they need to reconcile
                                  and incorporate into the LMP beginning balances;

                                •	 $266 million in unrecorded or misreported LMP trial balance adjustments
                                  that they need to determine why LMP functionality is either not recording or
                                  misreporting the information;

                                •	 $1.8 billion in systematically generated reapportionments; and

                                •	 $257 million in DDRS generated adjustments to record undistributed
                                  collections and disbursements for which they need to develop LMP
                                  functionality to record.




24 │Report No. DODIG-2014-066
                                                                                                      Finding A



The need for these adjustments demonstrated that sufficient business process
reengineering did not occur and that LMP did not maintain the correct beginning or
closing balances within its general ledger.


Manual Journal Vouchers Required to Correct LMP Reporting
Army financial managers and DFAS personnel continued to use costly manual procedures
to produce the SBR and correct inaccurate LMP trial balance data. In addition to the
$22.8 billion in beginning balance and other manual adjustments, DFAS personnel
also prepared 129 unsupported journal vouchers within DDRS, totaling $18.2 billion.
Table 2 details the types of journal vouchers made.

Table 2. Journal Vouchers for March 2013 AWCF Financial Reporting
                                                                    Absolute Dollar Amount
        Voucher Categories                      Count                     (in billions)
 Not Recorded in LMP                              47                         $8.2
 Match Budgetary to Proprietary                   73                          4.8
 Correction of Attributes                          9                          5.2
   Totals                                        129                        $18.2


Legacy Processes Not Recorded in the System
DFAS personnel prepared 47 unsupported journal vouchers, totaling $8.2 billion,
to record financial data not reported in the LMP trial balances. For example, DFAS
personnel prepared:

            •	 13 journal vouchers, totaling $7.3 billion, to record budget authority that the
              ABO did or could not record in LMP;

            •	 4 journal vouchers, totaling $5.7 million, to adjust cash collections and
              disbursements to agree with the Governmentwide Accounting report;

            •	 3 journal vouchers, totaling $637.1 million, to recognize the earnings
              allocated to the funding of the capital program and for customer orders
              from outside of Federal Government without an advance; and

            •	 27 journal vouchers, totaling $239.4 million, to account for Mechanization of
              Contract Administration Services accruals because Army financial managers
              did not reengineer LMP to integrate the entitlement and disbursement
              process as discussed in Report No. DODIG-2012-087.




                                                                                    Report No. DODIG-2014-066 │ 25
Finding A



                  Forcing of Budgetary Data to Match Proprietary Data
                  DFAS personnel prepared 73 unsupported journal vouchers, totaling $4.8 billion, to
                  force budgetary data to match the proprietary data supporting accounts receivable,
                  accounts      payable,   prepaid   advances,   collections,     and   disbursements.   For
                  example, the amount reported for DoD SCOA proprietary account 1310000.9000,
                  “Accounts Receivable,” should match DoD SCOA budgetary account 425100.9000,
                  “Reimbursable and Other Income Earned – Receivable.” As of March 31, 2013, there
                  was a $3.5 million difference between these accounts. If Army financial managers
                  configured LMP to record simultaneous budgetary and proprietary data using the DTCs,
                  then there would be no difference.


                  SFIS Attribute Corrections
                  DFAS personnel prepared nine unsupported journal vouchers, totaling $5.2 billion,
                  to correct SFIS attributes. DFAS personnel generated these journal vouchers because
                  Army financial managers did not verify that LMP properly recorded the SFIS attributes,
                  such as the Reimbursable Flag Indicator, Year of Budget Authority Indicator, and Trading
                  Partner Information. ASA(FM&C) should investigate the root causes for each of the
                  129 manual vouchers and develop a corrective action plan to reengineer and correct the
                  LMP functionality to report the transactional data correctly.


                  Conclusion
                  Despite spending more than $1.8 billion on implementing LMP as of September
                  30, 2013, Army financial managers cannot use LMP trial balance data to prepare
                  budgetary reports without requiring DFAS personnel to prepare journal vouchers and
                  making other adjustments to the data. The accuracy of the data, even after the journal
                  vouchers and other adjustments, was highly questionable without the assurance that
                  the general ledger posted all B2R business events correctly. For almost 6 years, Army
                  financial managers did not assess SFIS requirements against the AWCF business
                  environment to enable them to perform the business process reengineering needed
                  to implement the BEA B2R business process. Because they did not implement the
                  required DTCs, the LMP general ledger accounts did not contain accurate budgetary
                  data. Consequently, they must continue to use costly manual work around procedures that
                  were not supportable by LMP transactional data. In addition, OUSD(C) personnel cannot
                  rely on the LMP reported information to prepare future budget requests to Congress.
                  Until Army financial managers incorporate the appropriate DTCs and correct inaccurate




26 │Report No. DODIG-2014-066
                                                                                                Finding A



accounting data, the AWCF SBR material weakness will continue to exist. Without a
comprehensive plan of action and milestones to address these deficiencies, the AWCF
is at risk of not meeting the FY 2017 deadline to obtain auditable financial statements.


Redirected Recommendation
As a result of management comments, we redirected Recommendation A.2 to the DCFO.
Both the DCFO and DCMO play an important role in implementing actions associated
with the recommendation. Consequently, the DCFO should collaborate with the DCMO
to extend the DoD transaction codes’ alignment in the BEA.


Recommendations, Management Comments, and
Our Response
Recommendation A.1
We recommend that the Deputy Chief Financial Officer, DoD, approve the
baseline   configuration    of   the   Logistics   Modernization    Program     system
Budget-to-Report business process based on Army certification that the Army
has implemented the appropriate DoD United States Government Standard
General Ledger Transaction Library transactions for recording budgetary
accounts for the Army Working Capital Fund.


Deputy Chief Financial Officer Comments
The DCFO agreed that an assessment of the baseline configuration for the LMP B2R
business process should be done to confirm that the Army has implemented the
appropriate DoD Transaction Library transactions for recording budgetary accounts
in LMP.    However, the DCFO stated that to comply with established OUSD(C)
guidelines, an independent public accountant should accomplish the review and, once
satisfied, provide its assurance.  He also stated he would work with the Army to
seek this independent review to validate the baseline configuration of the LMP B2R
business process.


Our Response
The response from the DCFO addressed all the specifics of the recommendation, and
no additional comments are requested.




                                                                              Report No. DODIG-2014-066 │ 27
Finding A



                  Recommendation A.2
                  We recommend that the Deputy Chief Financial Officer, DoD, collaborate with
                  the Deputy Chief Management Officer, DoD, to extend the DoD transaction
                  codes’ alignment in the Business Enterprise Architecture by expanding current
                  definitions of business process steps to a sufficient level that allows for DoD
                  transaction codes mapping at the specific detailed process step level.


                  Deputy Chief Management Officer Comments
                  The Acting DCMO stated that the recommendation should be directed to the
                  DCFO.     The Acting DCMO stated that the DCMO works closely with the DCFO on
                  reviewing and updating financial management content in the DoD BEA. However,
                  the DCFO is the principal requirements owner for all financial management content.


                  Our Response
                  Based on the DCMO comments, we are redirecting the recommendation to the
                  DCFO. The DCFO needs to collaborate with the DCMO to extend the DoD transaction
                  codes’ alignment in the BEA.         We request additional comments by June 5, 2014.


                  Recommendation A.3
                  We     recommend        that   the   Assistant   Secretary   of    the   Army   (Financial
                  Management and Comptroller), in coordination with Army Materiel Command
                  G-8, develop a plan of action and milestones to validate and certify that they
                  have     configured      Logistics   Modernization    Program       system   functionality
                  according to the DoD United States Government Standard General Ledger
                  Transaction Library, applicable business events, and the DoD Standard
                  Chart of Accounts for the Budget-to-Report business process. As part of the
                  comprehensive business process reengineering effort, they should:

                                a.	 Investigate the root causes for each manual adjustment and other
                                  workarounds related to the Budget-to-Report business process
                                  and develop the reengineering plan for implementing the system
                                  functionality to record the data correctly.       The reengineering plan
                                  should also incorporate, to the extent possible, the functionality
                                  to integrate within the Logistics Modernization Program system the:

                                        (1)	 Debt Management Process and

                                        (2)	 Cash Management Process.




28 │Report No. DODIG-2014-066
                                                                                              Finding A



Assistant Secretary of Army (Financial Management and Comptroller)
Comments
The Deputy Assistant Secretary of the Army (Financial Operations), on behalf of
the ASA(FM&C), agreed and stated that ASA(FM&C), in coordination with Army
Materiel Command G-8 and DFAS, will develop a plan of action and milestones
no later than June  30, 2014, that will address the B2R findings assigned to
ASA(FM&C). The Deputy stated that the Army held a workshop in September 2013
to discuss the root causes and corrective actions for manual adjustments. The Army
analyzed the journal vouchers prepared for migrated balances and for July 2013
month-end transactional data.      As a result of a second workshop, held in
December 2013, the Army plans to delay the month-end reports for 3 days to allow
activities to enter data (undistributed disbursements and collections, transportation
charges, and Mechanization of Contract Administration Services accrual into LMP
before closing the reporting period.     The change in month-end reporting will
start in May 2014 for the April 2014 reporting month.      The Army plans to hold
additional workshops.

The Deputy also stated that the Army acknowledges that ideally, all processes should
be implemented in ERP systems, but the reality is that not all Federal agency and
DoD decisions have permitted this. Therefore, the Army will consider audit results
as it weighs risks of leaving some processes and system capabilities as-is and
elevating others to priority implementation status.    He also stated the Army is
evaluating the implementation of debt management at the enterprise level and
will determine a path forward. Until then, the Army will continue to use journal
vouchers to record, manage, and maintain debt accounts. In addition, the Army has
no immediate plan to incorporate the cash management functionality within LMP
and will continue to rely on DFAS to perform the function. Furthermore, he stated the
Army has deferred implementing Local Vendor Pay functionality past May 2015
due to higher audit readiness priorities, but the Army is evaluating a pilot program
to perform disbursing functions within an ERP system. The Deputy also stated that
the Army was incorporating mitigating controls by delaying month-end reports to
allow the posting of the Mechanization of Contract Administration Services accrual
directly in LMP.


Our Response
The Army response addressed all the specifics of the recommendations, and no
additional comments are required.      Although the Army will develop plans on




                                                                            Report No. DODIG-2014-066 │ 29
Finding A



                  implementing some measures that will eliminate the need for manual adjustments,
                  much work remains to be done to implement system functionality to accomplish
                  B2R business processes in LMP.

                                b.	 Document and certify to the Deputy Chief Financial Officer the
                                  comprehensive review of Army Working Capital Fund business
                                  activities that baselines the DoD transaction codes and general
                                  ledger accounts needed for recording the Logistics Modernization
                                  Program Budget-to-Report business process.

                  Assistant Secretary of Army (Financial Management and Comptroller)
                  Comments
                  The Deputy Assistant Secretary of the Army (Financial Operations), on behalf of the
                  ASA(FM&C), agreed and stated that the Army performed a comprehensive review
                  of the May 2013 and March 2014 DoD SCOA and obtained agreement from OUSD(C)
                  that 188  accounts were not applicable to AWCF business. The Army identified 13
                  system change requests to bring the LMP chart of accounts in line with the FY 2013
                  and FY  2014 DoD SCOA and to correct errors identified with the posting logic. The
                  Army implemented 2 of 13 system changes in FY 2013 and has plans to implement
                  the other system change requests before May 2016. Once implemented, LMP will
                  be able to use SFIS attributes rather than relying on legacy processes to classify
                  transactions. The Deputy stated that, starting in FY  2014, all system change requests
                  requiring a change to general ledger posting logic must cite the applicable DTC. He
                  stated that the Army has established a plan to address the missing business rules
                  and to populate general ledger accounts. He added that the Army has also analyzed
                  the 591 DTCs applicable to the budget execution process that are not used or used
                  improperly in LMP and will submit the results of the review to OUSD(C) for approval
                  May  30, 2014.        In addition, the Army is developing an LMP transaction library
                  to document the postings for applicable transactions to populate the SBR.


                  Our Response
                  The Army response addressed all the specifics of the recommendation and no
                  additional comments are required.

                                c.	 Develop system requirements for and request funding from the
                                  Defense Business Council to correct the Budget-to-Report process
                                  within the system.




30 │Report No. DODIG-2014-066
                                                                                               Finding A



Assistant Secretary of Army (Financial Management and Comptroller)
Comments
The Deputy Assistant Secretary of the Army (Financial Operations), on behalf of the
ASA(FM&C), agreed and stated that ASA(FM&C) and Army Materiel Command will
reevaluate all change request related to the audit findings and will submit additional
change requests for DCFO funding approval. The Army has already submitted system
change requests in five areas (LMP Chart of Accounts, abnormal balances, Contract
Authority, Tie Point Report, and SF  133 Report).     The final completion date for
the change requests is September 30, 2015.


Our Response
The Army response addressed all the specifics of the recommendation, and no
additional comments are required.

        d.	Develop a plan to accomplish the required pre-closing transactions
           necessary to support the preparation of the Standard Form 133 and
           Statement of Budgetary Resources at year-end.

Assistant Secretary of Army (Financial Management and Comptroller)
Comments
The Deputy Assistant Secretary of the Army (Financial Operations), on behalf of the
ASA(FM&C), agreed and stated that DFAS personnel implemented fiscal year-end
pre-closing entries for contract authority, SF  133, and SBR during FY  2013
year-end close.   These entries, along with the existing pre-closing entries support
closing accounts related to the SF133 and SBR.


Our Response
The Army response addressed all the specifics of the recommendation, and no
additional comments are required.

        e.	 Direct activities to conduct an immediate investigation of abnormal
           balances in unobligated accounts to determine whether a potential
           funding violation occurred.

Assistant Secretary of Army (Financial Management and Comptroller)
Comments
The Deputy Assistant Secretary of the Army (Financial Operations), on behalf of the
ASA(FM&C), stated that the Army Budget Office confirmed that sufficient funding
was continuously available to preclude an occurrence of a potential Antideficiency


                                                                             Report No. DODIG-2014-066 │ 31
Finding A



                  Act violation. The Army Budget Office reviewed the accounting reports and Annual
                  Operating Budget data at year-end and did not find any instances of abnormal
                  obligations at the limit level. In addition, the Deputy stated the Army is reconciling
                  accounts with abnormal balances, starting with reversing all transactional level manual
                  journal vouchers from LMP to determine the true abnormal account balances and
                  enable analysis of root causes for them. The Army plans to complete reconciliation of
                  the general ledger accounts for Contract Authority, Total Actual Resources–Collected,
                  Unapportioned Authority, and Allotments–Realized Resources by June 2015.


                  Our Response
                  The Army response addressed all the specifics of the recommendation, and no
                  additional comments are required.

                                f.	 Investigate the root cause of each journal voucher reported in budgetary
                                  accounts and develop a corrective action plan for recording the data
                                  within the Logistics Modernization Program system.

                  Assistant Secretary of Army (Financial Management and Comptroller)
                  Comments
                  The Deputy Assistant Secretary of the Army (Financial Operations), on behalf of
                  the ASA(FM&C), agreed and stated that, in September 2013, the Army analyzed
                  the differences between DDRS, the official Army reports, and the data in LMP. The
                  Army also examined journal vouchers involving improperly or incorrectly migrated
                  balances and concluded that timing differences preclude entering all data, such
                  as undistributed disbursements and collections, transportation charges, and
                  Mechanization of Contract Administration Services accrual, reported on the official
                  Army reports to be entered into LMP before closing a reporting period. The results
                  of the review will be used to develop a plan of action and milestones addressing the
                  reversal of DFAS journal vouchers to reconcile transactional data. To enhance analysis
                  and identify out-of-balance conditions between budgetary and proprietary data,
                  and the Deputy stated that LMP will promote implementation of the functionality
                  for Tie Point reconciliation in FY  2015.  This action coupled with implementing
                  Government Treasury Account Symbol should significantly reduce the necessity
                  for preparing journal vouchers that force agreement of financial data from various
                  sources. However, because some data calls occur only quarterly, configuring interfaces
                  for this functionality within LMP would be cost-prohibitive.


                  Our Response
                  The Army response addressed all the specifics of the recommendation, and no
                  additional comments are required.

32 │Report No. DODIG-2014-066
                                                                                               Finding B




Finding B
Comptroller Personnel Not Providing Information to
Record Budget Authority
OUSD(C) Revolving Fund Directorate personnel (OUSD[C] personnel) did not provide
the information concerning apportionment preparation, submission, and approval to
ABO for accurate and timely recording of business events in the ERP general ledgers.
Specifically, they did not:

         •	 provide the funding documentation needed to record the status of
            budgetary authority business events, or

         •	 request the apportionment of authority and distribute it using the
            President’s Budget source data or take actions needed to correct
            inaccurately reported data.

This occurred because OUSD(C) personnel did not reengineer the funds-distribution
business process and develop procedures for the DWCF budget offices to record
proper accounting entries in the ERP systems for business events required to establish,
apportion, allot, and sub-allot budget authority. In addition, ABO personnel did not
properly suballot budget authority because OUSD(C) personnel did not provide
appropriate guidance for distributing all types of budget authority below the allotment
level. As a result, Army financial managers configured LMP to post the end effects of
multiple business events that misreported both the amount of budgetary resources
and the status of those resources by about $1.8 billion.



Information Needed to Record Budget Authority
Business Events
OUSD(C) personnel did not provide the ABO with the detailed
information it needed to record the business events related
to the preparation, submission, and approval of the DWCF              OUSD(C)
apportionment.      Specifically, they did not provide the         personnel did
documentation showing the determination of actual                  not provide the
                                                               documentation showing
authority provided to the AWCF based on congressional
                                                                the determination of
actions, the apportionment amount they requested to               actual authority
support the AWCF, or the amount OMB actually approved.             provided to the
                                                                        AWCF.
Instead, OUSD(C) personnel only notified ABO personnel




                                                                             Report No. DODIG-2014-066 │ 33
Finding B



                  of the amounts allotted them, resulting in the inability to record the proper LMP
                  accounting transactions as they occurred. ABO personnel needed this information to
                  record the proper LMP accounting entries associated with the B2R business processes.
                  Although LMP contained the inherent capability to manage the AWCF portion of each
                  type of budget authority from inception through cancelation or withdrawal, Army
                  financial managers did not implement the DTCs necessary for accomplishing the
                  Execute Apportionment and Allocate Funds business event.

                  As was discussed in Finding A, they instead incorrectly directed the LMP PMO to configure
                  the system to bypass the three individual process steps that would establish, apportion,
                  and allot budget authority. Appendix F provides a more detailed description of the
                  process and communication that should occur during this business event.


                  Army Budget Office Did Not Receive Documentation to
                  Support the Recording of Appropriated Funds
                  OUSD(C) personnel did not provide the funding documents needed to record the status
                  of budgetary authority throughout the Execute Apportionment and Allocate Funds
                  business event. They did not provide ABO personnel with the documentation they
                  needed to record the AWCF portion of the appropriated funds immediately after
                  Congress enacted the annual appropriation act. To establish, apportion, and allot AWCF
                  appropriated funding in LMP, ABO personnel needed documentation to support the
                  recording of the DTCs A480, A116, and A120. The DTCs support the receipt of transferred
                  funds based on the enactment of the Appropriation Act that provided the authority
                  and the receipt of a funding transfer document, notification that OMB approved the
                  apportionment of the authority, and the receipt of the allotment. Appendix F provides
                  a description of this process. Instead, OUSD(C) personnel provided ABO personnel
                  only with a document showing the amounts allotted to them. ABO personnel did not
                  receive documentation supporting amounts apportioned to the AWCF by OMB or the
                  SF 1151 transferring funds to the AWCF. OUSD(C) personnel also did not inform them of
                  the total amount for each type of budget authority approved by Congress.


                  Establishing Appropriated Funds While Under a Continuing Resolution
                  OUSD(C) personnel did not provide the budget offices with the information they
                  needed to record DTCs related to the FY 2013 continuing resolution. For FY 2013,
                  Congress enacted Public Law 112-175, “Continuing Appropriations Resolution,
                  2013,” on September  28,  2012, which provided DWCF appropriated funding. OUSD(C)
                  personnel determined that the AWCF’s share of the annualized appropriation was




34 │ Report No. DODIG-2014-066
                                                                                                                                Finding B



$144.4  million.9              OMB Bulletin No. 12-02, “Apportionment of the Continuing
Resolution(s) for Fiscal  Year 2013,” September 28, 2012, implemented the continuing
resolution. OUSD(C) personnel requested apportionment of $42.6  million for AWCF
Overseas Contingency Operations and precluded from obligation the remaining
$101.8  million designated for AWCF War Reserve Materials.                                   Instead of providing
the source information to ABO personnel, OUSD(C) personnel provided the
information to DFAS. DFAS personnel recorded the amounts directly in DDRS using
a journal voucher on January 3, 2013, more than  3  months after the business event
actually occurred.             As a result, ABO personnel did not record this funding within
LMP until February 2013, after receiving the information they needed to record it.


Establishing and Apportioning AWCF Appropriated Funds
OUSD(C) personnel did not take appropriate actions to establish and apportion AWCF
appropriated funds. Upon enactment of Public Law 113-6, “Consolidated and Further
Continuing Appropriations Act, 2013,” on March 26, 2013, they did not request an
SF 1151 from Treasury to transfer $102.6 million in appropriated funds for AWCF War
Reserve Material, when the Treasury issued the DWCF warrant on April 17, 2013. Timely
receipt of this documentation provides ABO personnel with the information needed
to record the AWCF’s FY 2013 appropriated funding transferred in as unapportioned
authority. On April 9, 2013, DFAS personnel erroneously processed a DDRS journal
voucher to record the enactment, apportionment, and allotment of the AWCF FY 2013
funding before OMB approval on April 19, 2013. In addition, DFAS personnel did not
receive the Treasury warrants supporting the rescissions enacted under the sequestration
legislation until May 23, 2013, 2 months after the sequestration occurred. Consequently,
ABO personnel did not have the documentation they needed to correctly record the
AWCF’s share of the appropriation by populating DoD SCOA account 417000.3102
within LMP. On June 19, 2013, the Treasury transferred appropriated funding to the
AWCF on an approved SF 1151. This occurred almost 3 months after the enactment
of the law and 2 months after the Treasury issued the DWCF warrant. Consequently,
OMB apportioned the funding and OUSD(C) personnel notified ABO of the AWCF
allotment before DoD processed the SF 1151 to transfer the funding. Not involving
the ABO personnel in the distribution process resulted in the Army financial managers
misstating its second quarter SBR.




	 9	
       The enactment of Public Law 113-6 reduced the AWCF appropriated funding from an annualized amount of $144.4 million
       to $102.6 million.




                                                                                                              Report No. DODIG-2014-066 │ 35
Finding B



                  Congressionally Approved Budgetary Authority Not Used
                  When Preparing Apportionment Schedule
                  OUSD(C) personnel did not use the proper source data or take actions to correct
                  inaccurate data to request the apportionment of authority and distribute it to the
                  AWCF. They did not include $1.5 billion in unapportioned AWCF contract authority
                  on the initial SF 132 submission to OMB. They also revised the amount of spending
                  authority requested for new customer orders because the unobligated balances brought
                  forward did not accurately estimate the amount of work carried over from the previous
                  fiscal year.


                  Army Budget Office Unable to Record Contract Authority Business
                  Events Correctly
                  In August 2012, OUSD(C) personnel did not prepare an SF 132 requesting the
                  apportionment of all congressionally approved contract authority. When they prepared
                  the initial SF 132, they only requested an apportionment of $7.3 billion in AWCF
                  contract authority. This request did not include $1.5 billion in unapportioned contract
                  authority, classified as a variability target. In addition, they did not provide ABO
                  personnel documentation to record the $8.6 billion in unapportioned contract authority
                  approved by Congress or notify them when OMB approved the apportionment of $7.3
                  billion in contract authority so that they could record the accounting entries in LMP.
                  As of March 31, 2013, OUSD(C) personnel allotted only $7 billion in contract
                  authority to the AWCF.       Consequently, the LMP general ledger did not reflect
                  the $1.5 billion in unapportioned authority or an additional $250 million
                  in apportioned authority that OUSD(C) personnel did not allot to the AWCF.


                  DoD Requested Spending Authority In Excess of Anticipated New
                  Customer Orders
                  OUSD(C) personnel did not request the correct spending authority from OMB to
                  support the estimated $5.1 billion in new customer orders budgeted in the FY 2013
                  AWCF President’s Budget submission. Instead, they incorrectly requested $6 billion in
                  new spending authority to support AWCF Industrial Operations activities. The initial
                  SF 132 submission also requested the reapportionment of prior year unobligated
                  balances reported on SF 133, line 1000.       When OUSD(C) personnel prepared and
                  submitted the initial SF 132 in August 2012, they did not assess the current LMP balances
                  reported in the accounts that would support AWCF unobligated balances estimated at
                  year-end. Because Army financial managers did not configure LMP to record accurate
                  unobligated balance accounts, OUSD(C) personnel could not rely on LMP to provide




36 │ Report No. DODIG-2014-066
                                                                                                                                      Finding B



an accurate estimate. On September 30, 2012, the account that supports the amount
carried forward (DoD SCOA account 445000.9000) reported an abnormal balance
of $7 billion.            Instead, OUSD(C) personnel used the amount ($2.1 billion) on the
FY 2012 unobligated balance brought forward (SF 133, line 1000). However, this
amount did not accurately estimate the $434.8 million that the AWCF actually reported
as carried forward on September 30, 2012.

In December 2012, after FY 2012 closure, OUSD(C) personnel submitted a
second SF 132 requesting apportionment of $398.1 million10 in unobligated
balances carried forward.                      Again, this did not represent the amount reported
in LMP for DoD SCOA account 445000.9000 at year-end.                                                    Although, Army
financial managers were not confident that the amount reported on SF 133,
line 1000, was correct, they did not take action to reconcile that amount
with the transaction data within LMP.                                 Incorrect data reported on SF 133,
line 1000, caused the OUSD(C) personnel to erroneously
request almost $1 billion ($6 billion request of
SF-132 minus $5.1 billion in new customer                                                    Incorrect
                                                                                           data reported
budgeted) more in spending authority than the
                                                                                       on SF 133, line 1000,
AWCF budgeted in FY 2013 for new customer                                              caused the OUSD(C)
orders.            The      erroneous          request       occurred                personnel to erroneously
because according to the DoD’s Comptroller                                           request almost $1 billion
                                                                                    more in spending authority
Information System, the AWCF budgeted for                                            than the AWCF budgeted
$6.4 billion in Total Reimbursable Authority                                            in FY 2013 for new
for FY 2013, and the reported unobligated                                                customer orders.
balances carried forward were only $270.3 million
for industrial operations activities.                     Therefore, OUSD(C)
requested the $6 billion in new spending authority to achieve the total
authority amount.


Procedures Must Be Developed To Distribute Budget
Authority Within An ERP Environment
OUSD(C) personnel did not reengineer procedures to allow each DWCF budget office to
enter and manage its budget authority by recording all required business events within
their ERP system. Instead, they continued using legacy business processes, which
entailed providing most of the information to DFAS personnel for recording in DDRS.
OUSD(C) personnel need to implement new procedures to establish, apportion,

	10	
       This included $270.3 million carried forward in outstanding industrial operations customer orders and $127.8 million
       in unexpended appropriations for supply management. The OUSD(C) did not request apportionment of $36.7 million
       reported within the AWCF component level.



                                                                                                                    Report No. DODIG-2014-066 │ 37
Finding B



                  allot, and suballot budget authority using the ERP systems’ general ledgers. These
                  procedures would require that OUSD(C) personnel provide DWCF budget office
                  personnel with documentation supporting the determination of the total annual
                  budget authority authorized by Congress and provide budget office personnel
                  additional documentation to provide an accurate accounting of the status of those
                  resources throughout the fiscal year.

                  The current Annual Operating Budget procedure provides each budget office its
                  fiscal-year allotment.   However, in an ERP environment, budget-office personnel
                  need to know what resources Congress approved and whether OUSD(C) personnel
                  consider those resources unapportioned, apportioned, or allotted to their activity. This
                  allows DWCF budget-office personnel to record accurate accounting entries in their
                  ERP systems. This would increase involvement of budget-office personnel, allowing
                  them to control the recording of all BEA business events. As a result, they would be
                  able to better manage and distribute their funds and provide better management
                  oversight of the B2R business process.       OUSD(C) personnel should develop new
                  procedures designating each DWCF budget office as the funds-control official for
                  recording all budget-related business events.        OUSD(C) personnel should also
                  provide the budget offices documentation to support the anticipated annual budget
                  authority (based on enactment of the annual Defense Appropriation Act or other
                  legislation) for the budget offices to use in recording this authority in ERP systems as
                  unapportioned authority. OUSD(C) should do these tasks before the budget offices
                  submit their DWCF SF 132s to OMB.              The procedures should also require
                  OUSD(C) personnel to provide documentation to notify the DWCF budget offices
                  upon approval of the DWCF SF 132 and provide the allotment of budget authority to
                  the activities.


                  Suballotment of Budget Authority Using DoD-Unique
                  General Ledger Accounts
                  ABO personnel did not properly suballot all types of budget authority below the allotment
                  level. DoD FMR, volume 3, chapters 13, 14, and 15, provide policy on distributing
                  budget authority at or below the departmental level. The DoD FMR established unique
                  accounts for suballotting budget authority. However, the DoD FMR does not recognize
                  a need to suballot contract or spending authority from the ABO to Army commands
                  and AWCF activities for execution. The guidance addresses only the suballotment of
                  appropriated funds. Therefore, Army financial managers did not consider using the
                  unique DoD accounts to suballot AWCF budget authority to Army activities. Instead,
                  they developed incorrect requirements that debited and credited DoD SCOA accounts
                  451000.9000 and 461000.9000 at multiple activity levels and forced the allotment

38 │ Report No. DODIG-2014-066
                                                                                                Finding B



down to the execution level.     This resulted in LMP retaining $1.8 billion within
DoD SCOA account 451000.9000 that Army financial managers should have actually
recorded as an allotment in DoD SCOA account 461000.9000.

This occurred because OUSD(C) personnel did not provide
appropriate guidance on suballotting the various types            OUSD(C)
of budget authority below the allotment level. The            personnel did not
Treasury reserved GLACs 4520 through 4580 for                provide appropriate
                                                           guidance on suballotting
agency use.     Based on that, OUSD(C) personnel
                                                             the various types of
established accounts to suballot budget authority          budget authority below
using uniquely established DoD SCOA accounts                 the allotment level.
454000.9000       through    458000.9000.     Although
the DoD FMR provided policies for using accounts,
the policies limited the use to only appropriated funds.
The guidance also incorrectly implied that providing funding to the subordinate
command or activity was an allocation.      OMB A-11 defined the type of business
event actually accomplished as a suballotment of budget authority.         The AWCF
executes a majority of its budget authority below the Department of the Army level.
Consequently, suballotment procedures are necessary to allow AWCF activities to
execute the authority at their level.   DoD managers have begun taking actions to
develop procedures that permit the suballotment of appropriation authority using
DoD SCOA accounts 454000.9000 through 458000.9000 and SFIS attribute A12,
“Authority Type Code,” when recording transactions.       This will allow the DWCF
budget offices to receive an allotment from DoD and then use those accounts
to suballot the authority for execution using the ERP systems.          However, they
should create these procedures to support all types of budget authority. OUSD(C)
personnel should update DoD FMR, volume 3, to provide suballotment procedures
for ERP systems to record and distribute each type of budget authority below
the allotment level.


Budgetary Data Recorded in System Are Inaccurate
ABO personnel lacked the information to support the accurate recording of budgetary
authority within LMP.       Without the documentation to record congressionally
approved budget authority and other actions associated with recording the
status of budgetary authority occurring during the Distribute and Manage Budget
Phase of the B2R process, Army financial managers could not properly configure
LMP to accomplish the accounting entries needed to record the business events. Instead,
they configured LMP to post only the Annual Operating Budget receipt, which recorded



                                                                              Report No. DODIG-2014-066 │ 39
Finding B



                  the end effect of the multiple business events. The detailed information would allow
                  them to configure LMP to record the DTCs associated with key business processes
                  required to report the status of AWCF budgetary resources. In addition, because the
                  OUSD(C) did not identify to the ABO the amounts of its budget authority that remained
                  unapportioned or apportioned but not allotted to them, LMP inaccurately reported total
                  AWCF budgetary resources by about $1.8 billion. Specifically, the LMP general ledger
                  did not accurately report $1.5 billion in unapportioned authority and $250 million in
                  apportioned authority not allotted for use by the AWCF. Furthermore, Army financial
                  managers erroneously recorded $1.8 billion of allotted budget authority held at the
                  Department of the Army, Major Command, and Lifecycle Management Command level
                  as an apportionment in DoD SCOA account 451000.9000, instead of as an allotment
                  to the AWCF.


                  Recommendations, Management Comments, and
                  Our Response
                  Recommendation B
                  We recommend that the Under Secretary of Defense (Comptroller)/Chief Financial
                  Officer, DoD:

                          1.	    Develop    procedures     for   distributing   Defense   Working   Capital
                                 Fund budget authority to the budget offices for recording in the
                                 Enterprise Resource Planning systems that support the Defense
                                 Working Capital Fund.           The procedures should designate each
                                 Defense Working Capital Fund budget office as the funds-control
                                 official for recording all budgetary related business events and
                                 require   that   the    Revolving   Fund   Directorate   provide   budget
                                 offices documentation supporting:

                                      a.	 The anticipated annual budget authority amounts determined
                                           based on enactment of the annual Defense Appropriation Act
                                           or as provided by other legislation and prior to submission
                                           of the Defense Working Capital Fund Apportionment
                                           and Reapportionment Schedule to the Office of Management
                                           and Budget.

                                      b.	 Approval of the Defense Working Capital Fund Apportionment
                                           and Reapportionment Schedule by the Office of Management
                                           and Budget for recording in the general ledger.

                                      c.	 Allotment of budgetary authority to subordinate activities.

40 │ Report No. DODIG-2014-066
                                                                                                                              Finding B



Deputy Chief Financial Officer Comments
The DCFO partially agreed and stated that DoD receives funding for DWCF budget
authority at the appropriation level and the OUSD(C) Revolving Funds Directorate
has procedures for distributing DWCF budget authority through the use of Annual
Operating Budget documents.                      As indicated in the FY 2014 Annual Operating
Budget documents,            11
                                  the AWCF Annual Operating Budget for Supply Management
and Industrial Operations identify the connection to the SF  133, SBR, and the
associated USSGL accounts.                     However, the DCFO stated that USSGL accounts
do not exist for this type of anticipated authority prior to enactment of an
appropriation or for budget authority formulation and no financial audit requirement
exists to record this information in an ERP system. He also stated that ERP systems
can be configured for different purposes and how ERP systems are used are
functions of management decisions and available budget resources.  Additionally,
the DCFO stated that the OUSD(C) Revolving Funds Directorate complies with
Department-wide procedures for the Apportionment and Reapportionment Schedule
(SF  132), and management decisions for establishing DWCF resources throughout
the year do not impact budget development and submission decisions.  The
budget‑related data are recorded on the Annual Operating Budgets.

Finally, the DCFO stated that the leadership of each Military Department or agency
with a DWCF activity is responsible for designating its respective funds control
official for recording all budget‑related business events.                             The OUSD(C) Revolving
Funds Annual Operating Budget Control Officer sends each Annual Operating
Budget to the respective budget office and appropriate DFAS office for processing.
Suballotment to subordinate activities is within the management purview of the
respective activity managers.


Our Response
The response from the DCFO partially addressed the specifics of the recommendation.
Existing operating procedures did not provide ABO personnel with the documentation
needed to record the AWCF portion of the appropriated funds immediately
after Congress enacted the annual appropriation act.                             Instead, OUSD(C) personnel
provided ABO personnel with only a document supporting amounts allotted to them,
but they did not receive documentation supporting amounts apportioned to AWCF by
OMB or the SF  1151 transferring funds to the AWCF. The Annual Operating Budget
documents needed to record the continuing resolution were only provided to DFAS,


	11	
       The DCFO provided the FY 2014 Annual Operating Budget documents (Addendums 1-6) as part of his comments on the
       draft version of this report. We did not include addendums in the final report due to their length.



                                                                                                            Report No. DODIG-2014-066 │ 41
Finding B



                  more than 3  months after the business event actually occurred. As a result, ABO
                  personnel did not record this information within LMP until February 2013. The FY 2014
                  Annual Operating Budget documents provided by the DCFO shows the associated USSGL
                  accounts for recording different budgetary authority that did not exist on the FY 2013
                  Annual Operating Budget documents. However, they do not show the unapportioned
                  authority and the status of budgetary resources. In addition, the Department is not
                  using the inherent capability in DoD ERP systems to record the budgetary data. DoD
                  should use this inherent capability to maximum extent possible to support financial
                  management and reporting functions. The guidance the DCFO plans to develop for
                  the DWCF in response to Recommendation B.2 should address the allotment of budget
                  authority to subordinate activities, if it properly defines suballotment and uses DoD
                  SCOA (454000, 456000, and 457000) to suballot budget authority below the allotment
                  level. We request additional comments on how DoD plans to better use the inherent
                  capability of ERP systems for distributing and recording DWCF budget authority.

                          2.	    Update DoD Financial Management Regulation, volume 3, to provide
                                 suballotment procedures for the Enterprise Resource Planning systems
                                 to record and distribute each type of budget authority below the
                                 allotment level.

                  Deputy Chief Financial Officer Comments
                  The DCFO partially agreed and stated that the DoD FMR is a policy document and
                  not a procedures manual.          He stated that appropriate management teams must
                  develop guidance to properly define the suballotment procedures because it will vary
                  by activity and supporting systems’ requirements. He further stated that he has been
                  developing internal funds-distribution guidance to provide the basic framework
                  and proper accounting to be used for General Funds and plans to prepare additional
                  guidance, covering continuing resolutions, and other financial events.      The DCFO
                  stated he will work with the Revolving Funds Directorate to develop internal
                  funds-distribution guidance for the DWCF that will meet the requirements of
                  the recommendation.


                  Our Response
                  The DCFO met the intent of the recommendation. The internal funds-distribution
                  guidance should address the posting logic for suballotting the various types of budget
                  authority and reporting the status of budgetary resources. No additional comments
                  are required.




42 │ Report No. DODIG-2014-066
                                                                                               Appendixes




Appendix A
Scope and Methodology
We conducted this performance audit from December 2012 through February 2014 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions in relation to the audit objectives.

During the audit, we received detailed briefings from personnel within the LMP
PMO to understand how the LMP PMO implemented the DoD BEA B2R business
process supporting the AWCF SBR. We also held detailed discussions with personnel
from the offices of the OUSD(C), Deputy Chief Management Officer, ASA(FM&C),
Army Materiel Command G-8, Army Office of Business Transformation, and DFAS. We
obtained documentation to support the Army’s implementation of the B2R business
process for both BEA 9.0 and BEA 10.0 as well as LMP Architecture of Integrated
Information System models showing how they implemented the process. We compared
the 23 business events within the BEA 9.0 B2R business process to the corresponding
LMP Architecture of Integrated Information System models to determine if the LMP PMO
implemented the appropriate BEA 9.0 B2R business processes events and steps. After
the release of BEA 10.0, we performed additional analysis to determine whether new
requirements affected the results of our original analysis.

We also obtained copies of the FY 2013 USSGL, DoD SCOA, LMP Chart of Accounts,
and the Transaction Library. We identified the accounts necessary to perform the
B2R business process and determined which accounts LMP PMO implemented. We
reviewed the DoD SCOA accounts to determine whether the LMP Chart of Accounts
complied with DoD reporting requirements. In addition, we compared the LMP posting
logic with the Transaction Library DTCs to determine if the LMP PMO configured the
correct transaction codes to support the AWCF. We discussed our analysis with LMP PMO
personnel and considered other information, to include test scripts, demonstrations, and
various procedural documents. We limited our analysis to process steps related to the
B2R business process.

We traced a limited number of transactions through LMP to verify that LMP was
capable of posting each transaction type correctly and in accordance with DoD SFIS




                                                                                Report No. DODIG-2014-066 │ 43
Appendixes



                  and Treasury requirements. Specifically, we selected transactions that recorded the
                  anticipated resources and the actual receipt and execution of budgetary resources
                  in the AWCF.

                  We obtained and reviewed DDRS journal vouchers citing the general ledger accounts
                  in the 4000 series to determine the types of accounting adjustments used to prepare
                  the AWCF SBR. In addition, we downloaded the March 31, 2013, LMP trial balance and
                  analyzed the differences between the amounts reported on the AWCF SBR and what was
                  included in the actual trial balance data.


                  Use of Computer-Processed Data
                  To perform this audit, we obtained data from LMP. We determined data reliability by
                  reviewing selected B2R business transactions and the support for them. We compared
                  the LMP Chart of Accounts to the DoD SCOA and determined that LMP did not contain
                  21 of 57 budgetary accounts needed to perform B2R business processes. We compared
                  data from the March 31, 2013, LMP trial balance and found significant variances
                  between the trial balance data and the amounts reported in the AWCF SBR. We reviewed
                  129 journal vouchers recorded in DDRS as of March 31, 2013. Our review of these
                  journal vouchers and other adjustments occurring outside of LMP showed that the
                  system was not recording accurate data related to the B2R process. LMP posting logic
                  problems caused abnormal balances and the incomplete and inaccurate posting of
                  business events resulted in the need to adjust LMP reported data. Overall, the computer-
                  processed data we used were sufficiently reliable for reaching the audit conclusions and
                  supporting the findings in the report.




44 │ Report No. DODIG-2014-066
                                                                                          Appendixes




Appendix B
Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), Department
of Defense Inspector General (DoDIG), and the U.S. Army Audit Agency issued
15 reports discussing LMP functionality. Unrestricted GAO reports can be accessed
over the    Internet at http://www.gao.gov.      Unrestricted DoD IG reports can be
accessed at http://www.dodig.mil/pubs/index.cfm.        Unrestricted U.S. Army Audit
Agency reports can be accessed from .mil and gao.gov domains over the Internet at
https://www.aaa.army.mil/.


GAO
GAO Report No. 13-499, “Army Industrial Operations: Budgeting and Management of
Carryover Could Be Improved,” June 27, 2013

GAO Report No. 12-685, “DoD Business Systems Modernization: Governance Mechanisms
for Implementing Management Controls Need to be Improved,” June 1, 2012

GAO Report No. 12-565R, “DoD Financial Management: Reported Status of Department
of Defense’s Enterprise Resource Planning Systems,” March 30, 2012

GAO Report No. 12-134, “Implementation Weaknesses in Army and Air Force Business
Systems Could Jeopardize DoD’s Auditability Goals,” February 28, 2012

GAO Report No. 11-139, “Additional Oversight and Reporting for the Army Logistics
Modernization Program Are Needed,” November 18, 2010

GAO Report No. 11-53, “Improved Management Oversight of Business System
Modernization Efforts Needed,” October 7, 2010

GAO Report No. 10-461, “Actions Needed to Improve Implementation of the Army
Logistics Modernizations Program,” April 30, 2010

GAO Report No. 09-852R, “Defense Logistics: Observations on Army’s Implementation
of the Logistics Modernization Program,” July 8, 2009




                                                                           Report No. DODIG-2014-066 │ 45
Appendixes



                  DoD IG
                  Report No. DODIG-2013-111, “Status of Enterprise Resource Planning Systems’ Cost,
                  Schedule, and Management Actions Taken to Address Prior Recommendations,”
                  August 1, 2013

                  Report No. DODIG-2012-111, “Enterprise Resource Planning Systems Schedule Delays
                  and Reengineering Weaknesses Increase Risks to DoD’s Auditability Goals,” July 13, 2012

                  Report No. DODIG-2012-087, “Logistics Modernization Program System Procure-to-Pay
                  Process Did Not Correct Material Weaknesses,” May 29, 2012

                  Report No. D-2011-015, “Insufficient Governance Over Logistics Modernization Program
                  System Development,” November 2, 2010


                  Army
                  U.S. Army Audit Agency Report No. A-2012-0168-FMR, “Recoveries of Prior Year
                  Obligations, Logistics Modernization Program,” September 11, 2012

                  U.S. Army Audit Agency Report No. A-2012-0123-FMR, “Examination of Federal Financial
                  Management Improvement Act Compliance Validation,” July 19, 2012

                  U.S. Army Audit Agency Report No. A-2010-0220-FFM, “Examination of Federal Financial
                  Management Improvement Act Compliance – Requirements,” September 30, 2010




46 │ Report No. DODIG-2014-066
                                                                                                          Appendixes




Appendix C
Review of 23 Budget-to-Report Business Events
DCMO developed the BEA to comply with Public Law 108-375.                           To assist with
requirements determination and DoD standardization, the Office of Deputy Chief
Management Officer developed system models for each of the 15 end-to-end business
processes. The eight phases of the B2R business process contained 23 specific business
events. The first two phases of B2R business process related to performing executive
level planning and programming, which did not include specific business events
requiring system functionality.

For each business event, we compared the BEA 9.0, Operational View 6c models
to the LMP Architecture of Integrated Information System models. However, some
B2R process steps overlapped with two other (Procure-to-Pay and Order-to-Cash)
end-to-end business processes. To the extent that we reviewed the Procure-to-Pay
business process in a previous audit, we included those results in this review of the
B2R business process.      Table C provides the results of our review of each of the
business events within the eight phases of the B2R process.

Table C. Review of the Implementation of the B2R Business Phases
        Business Phase                    Business Event              Implementation Status
 Perform Executive Level          No business events within this   None
 Planning                         phase
                                  No business events within this
 Perform Programming                                               None
                                  phase
 Perform Budget Planning and      Perform Budgeting                Not Applicable
 Formulation
 Perform Budget Planning and      Support Congressional Budget     Not Applicable
 Formulation                      Review
 Perform Budget Planning and      Track Congressional Actions      Not Implemented
 Formulation
                                  Implement Case in Foreign
 Distribute and Manage Budget                                      Partially Implemented
                                  Military Sales
 Distribute and Manage Budget     Execute Continuing Resolution    Not Implemented
                                  Execute Apportionment and
 Distribute and Manage Budget                                      Partially Implemented
                                  Allocate Funds
                                  Execute Rescission,
 Distribute and Manage Budget                                      Not Implemented
                                  Cancellation, and Deferrals
                                  Manage Baseline for
 Distribute and Manage Budget                                      Not Applicable
                                  Reprogramming




                                                                                           Report No. DODIG-2014-066 │ 47
Appendixes



                            Business Phase                 Business Event           Implementation Status
                                                   Perform Reprogramming and
                    Distribute and Manage Budget                                 Not Implemented
                                                   Transfers
                    Distribute and Manage Budget   Manage Report of Programs     Not Implemented
                    Manage Financial Assets and    Manage Liabilities            Partially Implemented
                    Liabilities
                    Manage Financial Assets and    Manage Receivables            Partially Implemented
                    Liabilities
                    Manage Financial Assets and    Manage Investments            Not Applicable
                    Liabilities
                    Manage Financial Assets and    Manage Procurement            Partially Implemented
                    Liabilities                    Entitlement
                    Manage Financial Assets and    Manage Delinquent Debt        Not Implemented
                    Liabilities
                    Perform Treasury Operations    Manage Disbursements          Not Implemented
                    Perform Treasury Operations    Manage Collections            Not Implemented
                                                   Manage Execution with
                    Perform Treasury Operations                                  Not Implemented
                                                   Treasury
                    Manage General Ledger          Manage Financial              Not Implemented
                    Transactions                   Management Policy
                    Manage General Ledger          Manage Execution Fund         Not Implemented
                    Transactions                   Account
                    Manage General Ledger          Post to General Ledger        Partially Implemented
                    Transactions
                    Manage General Ledger          Record Loans and Grants       Not Applicable
                    Transactions
                    Perform Reporting              Perform Financial Reporting   Partially Implemented


                  The following paragraphs contain information about each of the eight phases and
                  23 business events, as well as our assessment as to whether LMP contained the
                  appropriate functionality to implement the relevant process steps.


                  Perform Executive Level Planning Phase
                  During this phase, OUSD(C) personnel review the national military and national security
                  strategies and develop the DoD Strategic Management Plan through the alignment of
                  the nation’s priorities to the strategic goals, objectives, measures, and initiatives. There
                  are no business events, transactions, or other LMP system requirements identified
                  in this phase.




48 │ Report No. DODIG-2014-066
                                                                                             Appendixes



Perform Programming Phase
During this phase, planning decisions, programming guidance, and congressional
guidance are used to develop detailed resource allocations. OUSD(C) personnel develop
the Program Objective Memorandum, which matches requirements against available
resources along with other alternatives to address significant programmatic issues and
OUSD(C) personnel create the Program Decision Memorandum. There are no LMP
transactions to record during this business event.


Perform Budget Planning and Formulation Phase
During this phase, budget office and OUSD(C) personnel prepare the Budget Estimate
Submission or Budget Change Proposals using the approved Program Objective
Memorandum as adjusted by the Program Decision Memorandum. OUSD(C) personnel
use these documents to develop a series of Program Budget Decisions and the President’s
Budget Submission. Once the President’s Budget Submission receives congressional
action, it becomes public law.      The following three business events outline the
requirements for this phase.


Perform Budgeting
This business event provides a detailed review of a program’s pricing, phasing, and
overall capability to execute on time and within budget. This business event was not
applicable to AWCF. Consequently, there are no LMP transactions to record during this
business event.


Support Congressional Budget Review
This business event defines the DoD roles and responsibilities in the congressional
hearing budget review. This business event was not applicable to AWCF. Consequently,
there are no LMP transactions to record during this business event.


Track Congressional Actions
This business event captures the markups and markdowns that result from budget
negotiations between Congress, DoD, and OMB. These negotiations occur between the
submission of the President’s Budget to Congress and enactment of the Appropriation
Act.   We determined that OUSD(C) personnel did not provide the documentation
ABO personnel needed to record the AWCF budget authority enacted by Congress. With
proper documentation, ABO personnel could record within LMP the DTCs required
to establish each type of AWCF budget authority for the upcoming fiscal year. This




                                                                              Report No. DODIG-2014-066 │ 49
Appendixes



                  is the logical business event to determine and communicate the amounts needed
                  for establishing budget authority using DTCs A176 (Contract Authority), A480
                  (Appropriated Funding), and A702 (Spending Authority) (see Finding B). However,
                  Army financial managers did not implement the functionality in LMP to accomplish
                  this business event.


                  Distribute and Manage Budget Phase
                  This phase establishes legal budgetary limitations within the agency, including
                  appropriation warrants, apportionments, continuing resolutions, funding allocations, and
                  allotments. This phase also includes posting the budgetary general ledger transactions
                  for financial visibility, funds control, and reporting. The following seven business events
                  outline the requirements for this phase.


                  Implement Case in Foreign Military Sales
                  This business event starts with a specific Letter of Offer and Acceptance document in
                  the Foreign Military Sales Trust Fund. Upon acceptance and receipt of a deposit from
                  the foreign country, Army financial managers should establish budget authority for
                  each case and record the authority at the case level. LMP received Foreign Military
                  Sales customer orders and recorded applicable DTCs but did not have the capability to
                  record the required SFIS attributes needed to maintain the transaction file related to
                  each case. LMP needed the capability to record SFIS attributes T21, “Security Cooperation
                  Customer Code;” T22, “Security Cooperation Case Designator;” T23; “Security Cooperation
                  Case Line Item Identifier;” and T27, “Security Cooperation Implementing Agency Code,”
                  for each transaction.      Overall, Army financial managers partially implemented the
                  functionality in LMP to accomplish this business event.


                  Execute Continuing Resolution
                  This business event identifies amounts available and the additional authority requested
                  for distribution under the Continuing Resolution Act. Army financial managers did
                  not perform the business process reengineering required to record this business event
                  according to the Transaction Library. Instead, DFAS personnel used a journal voucher
                  to correct the trial balance data. LMP did not record:

                             •	 DTC A480-001-01 to establish the annualized appropriation amount
                                 transferred from the DWCF to the AWCF and/or to record any increase in the
                                 AWCF’s portion of the actual annual appropriation enacted by Congress;




50 │ Report No. DODIG-2014-066
                                                                                              Appendixes



        •	 DTC A128-001-01 to record the amount of unapportioned authority
             temporarily unavailable for obligation, by debiting DoD SCOA account
             445000.9000 and crediting DoD SCOA account 439500.9000, “Authority
             Unavailable for Obligation Pursuant to Public Law – Temporary;”

        •	 DTC A116-001-01 to change the status of appropriated funding from
             unapportioned to apportioned upon notification that OMB approved
             the SF 132;

        •	 DTC A120-001-01 to record the Army allotment upon the receipt of the
             Annual Operating Budget;

        •	 the reversal of DTC A128-001-01 to record the amount of unapportioned
             authority that was temporarily unavailable for obligation and subsequently
             released for execution, when required; and

        •	 DTC A486-001-01 to transfer any unapportioned authority back to the
             DWCF if the congressionally enacted appropriation was less than amount
             originally recorded under the Continuing Resolution authority.

Execute Apportionment and Allocate Funds
This business event distributes the budget authority to appropriate activities for
execution.    The business event accomplishes apportionments, reapportionments,
allotments, suballotments, and budget authority transfers. Although Army financial
managers had implemented within LMP the capability of recording the budget authority
allotted to the Army, they did not correctly configure LMP to record the individual
business events as they occurred. This resulted in misreporting the status of budget
authority. LMP must be able to record the establishment, apportionment, allotment, and
suballotment as individual business events occur. LMP must also be able to delineate
the type of authority created and used throughout the budget reporting process using
SFIS attribute “A12” and separate DTCs as follows:

        •	 For appropriated authority with SFIS attribute “A12” equaling “P”
             (Appropriation):

                   °° DTC A480 to record the receipt of a funds transfer as unapportioned
                      authority,

                   °° DTC A116 to record the DoD apportionment based on OMB approval,

                   °° DTC A120 to record the allotment provided by USD(C), and

                   °° DTCs to record the suballotment.


                                                                               Report No. DODIG-2014-066 │ 51
Appendixes



                             •	 For contract authority with SFIS attribute “A12” equaling “C” (Contract
                                 Authority):

                                       °° DTC A116 and

                                       °° DTC A120.

                                       °° To record the suballotment, LMP should use the DTCs designed
                                          based on updated OUSD(C) policy (see Finding B).

                             •	 For spending authority with SFIS attribute “A12” equaling “S” (Spending
                                 Authority):

                                       °° DTC A116,

                                       °° DTC A120, and

                                       °° DTC A482 or A486 to record the spending authority transfers using
                                          an SF 1151.

                                       °° To record the suballotment, LMP should use the DTCs designed
                                          based on updated OUSD(C) policy.

                  Execute Rescission, Cancellation, and Deferrals
                  This business event describes the withdrawal of and deferral of funds as mandated by
                  the Appropriation and Impoundment Acts. Army financial managers did not implement
                  the LMP functionality needed to perform the individual processes needed to record
                  transactional data using DTCs A126, A128, and A131. Instead, DFAS personnel used
                  journal vouchers to record these business events. Therefore, Army financial managers
                  need to reengineer their business processes to allow LMP to record the DTCs needed to
                  accomplish this business event.


                  Manage Baseline for Reprogramming
                  This business event manages the baseline for reprogramming appropriated
                  funds within a fiscal year.      OUSD(C) personnel use this baseline as the starting
                  point for reprogramming actions to include below threshold reprogramming,
                  internal reprogramming, and prior approvals. Since the business event centers on
                  facilitating offline reporting requirements there are no LMP transactions to record
                  during this business event.




52 │ Report No. DODIG-2014-066
                                                                                               Appendixes



Perform Reprogramming and Transfers
This business event realigns funds from the original congressional enactment
or subsequent funds distribution to new areas.         It begins with ABO submitting
reprogramming requests that should require the recording of DTCs A468 and
A470 in LMP. Army financial managers did not configure LMP to accomplish these
business events and LMP did not contain several of the DoD SCOA accounts needed
to accomplish the business events. Therefore, they need to reengineer their business
processes to allow LMP to record the DTCs needed to accomplish this business event.


Manage Report of Programs
This business event focuses on the creation and publication of report of programs.
Annually, as of September 30, the report documents changes to programming levels.
There are no LMP transactions to record during this business event. However, the system
should be able to develop the annual reports using the data recorded in the trial balance.
Army personnel agreed that having LMP generate the report of programs would be
helpful to ABO. Therefore, Army financial managers should take steps to develop the
reporting functionality in LMP.


Manage Financial Assets and Liabilities Phase
This phase demonstrates accountability over assets and liabilities through identification,
classification, and valuation from acquisition or inception to disposal or liquidation.
The following five business events outline the requirements for this phase. Most of the
business events in this phase relates to other end-to-end business processes. Additional
audit work occurred or will occur on these business processes.


Manage Liabilities
This business event recognizes and records the amounts DoD owed to Federal or
nonfederal entities based upon physical or implied performance. It includes activities
related to managing payables and accruals, recording the request for payment, and
recording the other liabilities and the related asset or expense. LMP continued to use
source data from legacy systems to accomplish major aspects of this business event.
Report No. DODIG-2012-087 and U.S. Army Audit Agency Report No. A-2012-0168-FMR
identified that the contracting and entitlement portions of the business event occur
outside LMP. Army financial managers have developed a plan of actions and milestones
to implement the recommendations and have begun implementing of system changes.




                                                                                Report No. DODIG-2014-066 │ 53
Appendixes



                  In addition, LMP did not accurately record obligation recoveries. For example, when
                  recoveries occur to contract authority, LMP should be capable of recording the
                  following DTCs:

                             •	 DTC D120-002-01 to record the recovery of prior year obligations, and

                             •	 DTC D136-001-01 to withdraw the original authority that was withdrawn in
                                 the previous fiscal years.

                  Once ABO personnel determine that OMB provided automatic reapportionment of the
                  contract authority, LMP should record:

                             •	 DTC A176-001-01 to establish the new automatically reapportioned authority,

                             •	 DTC A116-001-01, and

                             •	 DTC A120-001-01.

                             •	 To record the suballotment, LMP should use the DTCs designed based on
                                 updated OUSD(C) policy.

                  Army financial managers and LMP PMO personnel stated that they continue to work
                  towards implementing the requirements associated with managing AWCF liabilities
                  within LMP; however, they did not yet reengineer business processes to allow LMP to
                  record the DTCs needed to accomplish this business event.


                  Manage Receivables
                  This business event entails recording the receivable, recognizing revenue earned,
                  applying cash receipts, and liquidating receivables. The process also includes billing,
                  aging, dunning, writing off, and adjusting receivables, as well as assessing interest
                  and penalties on outstanding receivables. LMP models showed that Army financial
                  managers did not conduct sufficient business process reengineering to implement
                  these functions within LMP. LMP had implemented most of the functionality needed
                  to record the status of customer orders; however, it did not record all the required
                  process steps.       For example, although LMP contained the DoD SCOA accounts to
                  record the liquidation of contract authority, it did not contain the functionality to
                  record DTC A187 for recording the liquidation of contract authority. As a result, DFAS
                  personnel prepared journal vouchers to record these amounts. In addition, DCFO
                  managers continue to require that the AWCF accomplish cash management functions
                  outside of LMP. This forced the use of interfaces to migrate the legacy data into
                  LMP.     Therefore, Army financial managers still need to reengineer their business
                  processes to allow LMP to record the DTCs needed to accomplish this business event.


54 │ Report No. DODIG-2014-066
                                                                                            Appendixes



Manage Investments
This business event describes how DoD manages and records securities held for the
production of investment revenues. This business event was not applicable because
the AWCF does not use securities and investments to fund its operation. Consequently,
there are no LMP transactions to record during this business event.


Manage Procurement Entitlement
This business event includes the approval of payment requests from commercial
vendors for goods or services rendered based upon contract terms and conditions
such as financing payments. The business event includes invoice matching against
a receiving report and the purchase order before payment. Although LMP contains
some of the process steps involved in the business event and can record processes
such as commitments and obligations, they have not implemented the entire business
event. In Report No. DODIG-2012-087, we reported that Army financial managers did
not reengineer the Procure-to-Pay business process. Consequently, the entitlement of
contractor payments continues to occur outside of LMP. Army financial managers have
a plan of action and milestones but have not yet completed the reengineering needed
to integrate the entitlement process and correctly record the required DTCs. They do
not expect completion of these actions until FY 2015.


Manage Delinquent Debt
This business event defines the appropriate actions to record, manage, and maintain
DoD delinquent debt accounts. It provides standardized processes, such as:

      (1)	 collection of eligible receivables and referrals to Treasury;

      (2)	 application of penalties, administrative, and interest fees;

      (3)	 processing of other types of delinquent debt collection actions, such as
           waivers, write-offs, wage garnishments, debt compromise, installment, close
           outs, and remissions; and

      (4)	 recording of financial transactions associated with the adjustments of debt
           balances and statuses.

On August 31, 2012, the Deputy Chief Financial Officer issued a memorandum titled
“DoD Delinquent Debt Management Policy Guidance for the Target Environment.”
The guidance defines a standard end-to-end solution for managing public accounts
receivable and provides standard values for Department of the Treasury interfaces. The
guidance is to become part of ERP system implementation strategies; business process



                                                                             Report No. DODIG-2014-066 │ 55
Appendixes



                  reengineering; roles and responsibilities refinement; and change management efforts.
                  Army financial managers have not yet reengineered their business processes to allow
                  LMP to record the DTCs needed to accomplish this business event. In the interim,
                  DFAS personnel used journal vouchers to record debt related business events in DDRS.


                  Perform Treasury Operations Phase
                  The Perform Treasury Operations Phase includes execution of disbursements and
                  collections and all related Treasury reporting. It includes replacement of financial
                  instruments, cash management, and the management of securities held for the
                  production of investment revenues. The phase also includes reconciling Fund Balance
                  with Treasury transactions with Treasury information to validate proper and timely
                  posting of the undistributed disbursements and collections.         The following three
                  business events outline the requirements for this phase.


                  Manage Disbursements
                  This business event supports all activities necessary to execute the payment process
                  in accordance with Federal payment regulations, including the Prompt Payment
                  Act. Processes within this event include payment groupings; credit offset application;
                  check and EFT ready to pay file generation; payment file certification, confirmation,
                  and cancellation; payment cancellation with and without re-issuances; and payment
                  remittance notifications. Army financial managers did not correctly configure LMP
                  to accomplish this business event. For example, Army financial managers did not
                  reengineer LMP business processes to implement a capability to receive and reconcile
                  cash management files directly from the Treasury. Previously reported discrepancies
                  with data transfer and the posting logic remain uncorrected. Report No. DODIG-2012-087
                  states that DoD managed disbursements using legacy systems and allowed for
                  payment entitlement outside of LMP. In addition, the data transferred in from legacy
                  systems did not contain complete information for recording the business event
                  within LMP. This process created duplicate obligations and the need to reconcile the
                  unmatched disbursements, and caused the recording of incorrect information in LMP for
                  undistributed disbursements.     Further, DDRS automatically adjusted undistributed
                  amounts to balance disbursements with amounts reported by the Treasury.


                  Manage Collections
                  This business event involves receiving, controlling, and recording DoD monies owed,
                  including the receipt and recording of cash and cash-like instruments to liquidate an open
                  receivable, a prepayment prior to delivering goods or performing services (advance), or




56 │ Report No. DODIG-2014-066
                                                                                               Appendixes



funds transferred between appropriations. It also includes the procedures for unbilled
and unidentified collections. Through review of LMP models and discussions with
Army financial managers and LMP PMO personnel, we determined that the LMP PMO
did not configure LMP to perform cash management functions. Instead, DCFO managers
continued to perform these functions outside the ERP environment and required
the transfer of data to LMP using interfaces. Further, by not integrating the process,
DFAS personnel must record journal vouchers within DDRS to reconcile issues identified
within the LMP trial balance data that resulted from the transferred data. For example,
DFAS personnel completed journal vouchers to record undistributed collections that
LMP did not record. Army financial managers did not reengineer the B2R process to
accomplish this business event or implement the required functionality to record the
DTCs related to the collection process within LMP.


Manage Execution with Treasury
This business event develops the agreement of the general ledger account balances
with corresponding Treasury balances, which includes the monitoring of collections
and disbursements. This business event also establishes agreement of Trading Partner
data with cash balances. Although the business event does not contain specific DTCs,
the reconciliation of transactions could require the recording of DTCs related to
other business events. In addition, Army financial managers did not reengineer and
implement cash management functions needed to integrate the business event within
LMP. Instead, this process continues to reside outside of LMP with corrections made by
journal voucher.


Manage General Ledger Transactions Phase
The Manage General Ledger Transactions Phase encompasses posting of financial events
(transactions) to the USSGL accounts for assets, liabilities, fund balances, revenues, and
expenses associated with the recording of federal funds. The phase also includes the
review and reconciliation of subsidiary ledgers to the corresponding USSGL account. The
following four business events outline the requirements for this phase.


Manage Financial Management Policy
This business event begins with the receipt of a new requirement from an internal
or external source and flows through OUSD(C) involvement in making financial
management policy. A Control Board approves requirements to implement changes to
the DoD SCOA, SFIS attributes, and pro forma entries in the Transaction Library. This
business event ties to the successful implementation of the other 22 B2R business




                                                                                Report No. DODIG-2014-066 │ 57
Appendixes



                  events and associated business process reengineering efforts within LMP. Review of
                  the other 22 business events identified 17 business events applicable to the AWCF that
                  Army financial managers did not completely implement within LMP. As a result, we
                  concluded that they did not properly assess financial management policy requirements
                  to verify proper implementation of 17 business events within LMP.


                  Manage Execution Fund Account
                  This business event includes establishing an initial appropriation fund balance for each
                  program and decrementing the amount of available funds as spending activity occurs.
                  It allows for funds control validation prior to approval of commitments, obligations,
                  entitlements, and expenditures. The business event supports the commitment and
                  obligation of funds requested from other activities.        Commitments, obligations,
                  entitlements, and expenditures decrease the available fund balance. As previously
                  discussed in Report No. DODIG-2012-087, Army financial managers did not reengineer
                  the Procure-to-Pay business process to entitle contractor payments within LMP. Until
                  they complete the reengineering needed to integrate the entitlement process and
                  correctly record the required DTCs, LMP cannot fully accomplish this business event.


                  Post to General Ledger
                  This business event accounts for journal entries and the posting of pro forma entries.
                  Pro forma entries maintain a complete audit trail of all system transactions, records
                  the business events, and reports the financial condition. We determined that LMP
                  appeared to have configuration to perform the required account postings associated with
                  598 of 1,258 DTCs applicable to working capital fund activities (see Appendix D).
                  Implementing of the remaining 660 DTCs would require changes to system functionality
                  to address missing accounts and the recording of inaccurate transactions that bypassed
                  the required accounts. As a result, Army financial managers only partially implemented
                  this business event within LMP.


                  Record Loans and Grants
                  This business event records the financial outcome of activity related to the award,
                  origination, performance, payment, collection, and closeout of direct loans, loan
                  guarantees, and grants. This business event was not applicable because the AWCF does
                  not use these instruments; therefore, there are no LMP transactions to record.




58 │ Report No. DODIG-2014-066
                                                                                             Appendixes



Perform Reporting Phase
This phase and the corresponding business event (Perform Financial Reporting)
encompass the receipt of financial management reporting requirements, information
product preparation, and finished product distribution to the requestor. This phase
routinely involves summarizing and clearly communicating financial data collected
through various means and providing output results based on specified reporting
requirements. LMP is not required to post any DTCs for this business event. However,
we determined that Army financial managers did not fully implement this business
event within LMP because they did not use existing LMP functionality to handle general
ledger account analyses. Instead, DFAS personnel used DDRS to reconcile and enter
journal vouchers, creating the need to manage two separate sets of accounting
information. Army financial managers relied on DDRS to record the end effect of
transactions that they should have recorded in LMP.

LMP continued to report inaccurate information because Army financial managers were
not addressing data within the system. This perpetuated the need to maintain two
sets of accounting information. During our audit, they began a project to develop the
capability to populate the SF 133 by AWCF location. While the project is not complete,
this effort may provide the types of information necessary to correct data and abnormal
balances identified within the system.




                                                                              Report No. DODIG-2014-066 │ 59
Appendixes




                  Appendix D
                  General Ledger Accounts and Transaction Codes Not
                  Implemented
                  On August 13, 2007, the Acting, Deputy Chief Financial Officer, DoD, issued a
                  memorandum requiring the implementation of the DoD SCOA in target general ledger
                  systems. In November 2012, the DoD Director, Accounting and Finance Policy, issued
                  an updated memorandum that provided the FY 2013 DoD SCOA, which contained
                  214 10-digit budgetary accounts for accomplishing the B2R business process. The
                  FY 2013 DoD SCOA identified 79 of the 214 budgetary accounts as applicable to working
                  capital fund activities. Subsequently, OUSD(C) personnel identified nine additional
                  accounts that the Treasury Financial Manual required for revolving fund activities. This
                  resulted in a determination that 88 DoD SCOA should be applicable to LMP. Subsequently,
                  on June 3, 2013, the Deputy Chief Financial Officer, DoD, issued a memorandum that
                  permitted financial management system owners to assess the DoD SCOA account
                  requirements and request an account exemption from DoD SCOA accounts that they
                  determined as not associated with the business mission or not supporting systems’
                  business processes, required transactions, and purpose.

                  On April 23, 2013, the Deputy Assistant Secretary of the Army (Financial Operations)
                  submitted an exemption request for 169 DoD SCOA accounts, including 17 of the
                  88 budgetary accounts identified as applicable to working capital fund activities.12
                  OUSD(C) personnel assessed the request, and on July 19, 2013, the Director, Business
                  Integration Office issued a memorandum to the Deputy Assistant Secretary of the Army
                  (Financial Operations) agreeing that the 17 budgetary accounts were no longer applicable
                  to working capital fund activities. In addition, the Director identified an additional
                  12 budgetary accounts determined no longer to be applicable. Army financial managers
                  subsequently determined that two budgetary accounts considered applicable in the
                  FY 2014 DoD SCOA will not be applicable to the AWCF. Consequently, Army financial
                  managers should now be able to provide the LMP PMO with requirements to configure
                  57 DoD SCOA accounts. The Transaction Library associates the use of 1,258 DTCs with
                  the 57 accounts.13




                  	12	
                         The Army requested this exemption based on an earlier draft of the June 3, 2013, memorandum.
                  	13	
                         Army financial managers can reduce the number of DTCs required for configuration by assessing and documenting the
                         applicability of the corresponding proprietary accounts populated by the DTC. LMP PMO would not need to configure any
                         DTCs citing exempt proprietary accounts.




60 │ Report No. DODIG-2014-066
                                                                                                Appendixes



The following paragraphs discuss, by type of budgetary authority, the results of our
analysis of the 57 DoD SCOA accounts that Army financial managers should implement
in LMP and the significance of not configuring LMP with the correct posting logic to
populate these accounts. We also performed a similar analysis on DoD SCOA accounts
related to budget execution. Tables D-1 through D-4 identify the 57 DoD SCOA accounts
that required LMP configuration and the system’s ability to demonstrate configuration of
the corresponding DTCs.


DoD Transaction Codes Related to Appropriated Funds
The LMP Chart of Accounts did not contain four of the five accounts related to appropriated
funds.      Consequently, LMP could not accomplish the posting logic associated with
12 DTCs that support those four accounts.         In addition, LMP did not contain the
functionality to accomplish one other DTC. In total, LMP did not properly accomplish
13 applicable DTCs associated with the management of appropriated funds. Table D-1
identifies the five accounts that required LMP configuration and the system’s ability to
demonstrate configuration of the 13 corresponding DTCs.

Table D-1. Transaction Codes Implementation Related to Appropriated Funds
  DoD Standard       Implemented In     Number of            DTCs            DTCs Not
    Account               LMP         Applicable DTCs    Implemented       Implemented
 417000.3102               No               3                  0                 3
 417000.3103               No               3                  0                 3
 419000.3102               No               3                  0                 3
 419000.3103               No               3                  0                 3
 439500.9000              Yes               1                  0                 1
   Totals                                   13                 0                13


DoD Transaction Codes Related to Contract Authority
The LMP Chart of Accounts contained the nine accounts required to manage contract
authority correctly. However, Army managers did not accomplish the business process
reengineering required to develop the posting logic for 18 of the 34 DTCs corresponding
to those accounts. Table D-2 shows the nine accounts that required configuration in LMP
and Army financial managers ability to demonstrate LMP configuration for the 34 DTCs.




                                                                                 Report No. DODIG-2014-066 │ 61
Appendixes



                  Table D-2. Transaction Codes Implementation Related to Contract Authority
                         DoD Standard           Implemented In            Number of                    DTCs                  DTCs Not
                           Account                   LMP                Applicable DTCs            Implemented             Implemented
                    403200.9000                         Yes                      8                        5                        3
                    403400.9000                         Yes                      4                        1                        3
                    413100.9000                         Yes                      2                        1                        1
                    413200.9000                         Yes                      6                        5                        1
                    413300.9000                         Yes                      6                        1                        5
                    413400.9000                         Yes                      2                        1                        1
                    413500.9000                         Yes                      4                        1                        3
                    413800.9000                         Yes                      1                        1                        0
                    413900.9000                         Yes                      1                        0                        1
                         Totals                                                  34                      16                       18


                  DoD Transaction Codes Related to Spending Authority
                  The LMP Chart of Accounts did not contain 7 of the 10 accounts related to spending
                  authority. Consequently, the LMP PMO could not develop the posting logic needed to
                  accomplish the 10 DTCs that supported those accounts. In addition, LMP did not contain
                  the functionality to accomplish the posting logic associated with 28 other DTCs. In total,
                  LMP did not properly accomplish 38 of the 63 DTCs associated with managing spending
                  authority. Table D-3 identifies the 10 accounts that required LMP configuration and the
                  system’s ability to demonstrate configuration of the 63 corresponding DTCs.

                  Table D-3. Transaction Codes Implementation Related to Spending Authority14
                         DoD Standard           Implemented In            Number of                    DTCs                  DTCs Not
                           Account                   LMP                Applicable DTCs            Implemented             Implemented
                    421000.9000                         Yes                      20                      10                       10
                    425100.0700                         No                       0                        0                        0
                    425100.9000                         Yes                      7                        5                        2
                    425200.0700                         No                       0                        0                        0
                    425200.9000                         Yes                      26                      10                       16
                    425300.9000                         No                       2                        0                        2
                    426100.9000                         No                       1                        0                        1
                    438200.9000                         No                       3                        0                        3



                  	14	
                         DoD SCOA accounts reporting all zeroes in the DTC columns of Table D-3 are those DTCs that we had already addressed as
                         applicable to the other account involved in the transaction, which prevents duplication.




62 │ Report No. DODIG-2014-066
                                                                                                                                  Appendixes



        DoD Standard           Implemented In            Number of                    DTCs                  DTCs Not
          Account                   LMP                Applicable DTCs            Implemented             Implemented
   438300.9000                         No                       3                        0                        3
   439800.9000                         No                       1                        0                        1
        Totals                                                  63                      25                       38


DoD Transaction Codes Related to Budget Execution
The LMP Chart of Accounts did not contain 10 of the 33 accounts needed to report budget
execution correctly. Consequently, LMP could not accomplish the business process
reengineering required to develop the posting logic associated with 12 DTCs that support
those 10 accounts. In addition, LMP did not contain functionality to accomplish the
posting logic associated with 571 other DTCs. In total, LMP did not properly accomplish
591 of the 1,148 applicable DTCs associated with the execution of budget authority.
Table D-4 shows the 33 accounts that required LMP configuration and the system’s ability
to demonstrate configuration of the 1,148 corresponding DTCs.

Table D-4. Transaction Codes Implementation Related to Budget Execution15
        DoD Standard           Implemented In            Number of                    DTCs                  DTCs Not
          Account                   LMP                Applicable DTCs            Implemented             Implemented
   420100.9000                         Yes                      4                        2                        2
   422100.9000                         Yes                      9                        6                        3
   422200.9000                         Yes                      3                        0                        3
   423000.9000                         No                       0                        0                        0
   423100.9000                         No                       0                        0                        0
   423300.9000                         No                       0                        0                        0
   423400.9000                         No                       2                        0                        2
   426600.9000                         No                       8                        0                        8
   427700.9000                         No                       2                        0                        2
   428700.9000                         No                       0                        0                        0
   431000.9000                         Yes                      85                       2                       83
   439200.9000                         Yes                      6                        0                        6
   445000.9000                         Yes                     327                       3                      324
   451000.9000                         Yes                      9                        0                        9
   459000.9000                         Yes                      1                        1                        0



	 15	
        DoD SCOA accounts reporting all zeroes in the DTC columns of Table D-4 are those DTCs that we had already addressed the
        DTC as applicable to the other account involved in the transaction, which prevents duplication.




                                                                                                                  Report No. DODIG-2014-066 │ 63
Appendixes



                      DoD Standard   Implemented In     Number of           DTCs        DTCs Not
                        Account           LMP         Applicable DTCs   Implemented   Implemented
                    461000.9000           Yes              299              230           69
                    470000.9000           Yes               6                5             1
                    480100.9000           Yes              300              282           18
                    480200.9000           Yes               62               2            60
                    483200.9000           No                0                0             0
                    487100.9000           Yes               0                0             0
                    487200.9000           Yes               0                0             0
                    488100.9000           Yes               0                0             0
                    488200.9000           Yes               0                0             0
                    490100.0700           No                0                0             0
                    490100.9000           Yes               23              22             1
                    490200.0700           No                0                0             0
                    490200.9000           Yes               2                2             0
                    493100.9000           Yes               0                0             0
                    497100.9000           Yes               0                0             0
                    498200.9000           Yes               0                0             0
                    497200.9000           Yes               0                0             0
                    498100.9000           Yes               0                0             0
                      Totals                              1,148             557           591




64 │ Report No. DODIG-2014-066
                                                                                                Appendixes




Appendix E
Statement of Budgetary Resources to LMP Trial Balance
Comparison
Figure E identifies the differences between what the AWCF SBR reported on March 31,
2013, and the supporting LMP trial balance data for the same period. The calculated
variance for two key sections of the SBR (Budgetary Resources and Status of Budgetary
Resources) was $11.4 billion.

Figure E. SBR and LMP Trial Balance Variances as of March 31, 2013 (In Millions)
      Line Number and Title             SBR           LMP Trial Balance   Dollar Variance
                                    Budgetary Resources
 1000 Unobligated Balance                     $435             ($6,987)             $7,422
 Brought Forward, October 1
 1020 Adjustment to Unobligated
 Balance, Brought Forward,                       0                    0                     0
 October 1 (+ or -)
 1020.5 Unobligated Balance
 Brought Forward, October 1,                   435              (6,987)              7,422
 as Adjusted
 1021 Recoveries of Prior Year                 780                  780                     0
 Unpaid Obligations
 1043 Other Changes in                        (311)                  10              (321)
 Unobligated Balance (+ or -)
 1051 Unobligated Balance From                 904              (6,197)              7,101
 Prior Year Budget Authority, Net
 1290 Appropriations                           103                   69                 34
 (Discretionary and Mandatory)
 1490 Borrowing Authority                        0                    0                     0
 (Discretionary and Mandatory)
 1690 Contract Authority                      7,353               6,971                383
 (Discretionary and Mandatory)
 1890 Spending Authority
 from Offsetting Collections                  6,055               6,069               (14)
 (Discretionary and Mandatory)
 1910 Total Budgetary Resources            $14,415               $6,912             $7,503




                                                                                 Report No. DODIG-2014-066 │ 65
Appendixes



                          Line Number and Title                    SBR             LMP Trial Balance   Dollar Variance
                                                          Status of Budgetary Resources
                    2190 Obligations Incurred                            $6,522               $6,087              $435
                    2204 Apportioned                                      7,893               12,204            (4,311)
                    2304 Exempt From                                          0                    0                     0
                    Apportionment
                    2404 Unapportioned                                        0                    0                     0
                    2490 Total Unobligated Balance,                       7,893               12,204            (4,311)
                    End of Year
                    2500 Total Budgetary Resources                    $14,415               $18,291            ($3,876)
                                                          Change in Obligated Balance
                    Unpaid Obligations
                    3000 Unpaid Obligations,                             $6,989               $8,576           ($1,587)
                    Brought Forward, October 1
                    3006 Adjustment to Unpaid                                 0                    0                     0
                    Obligations, Start of Year (+ or -)
                    3012 Obligations Incurred                             6,522                6,087                435
                    3020 Outlays (Gross) (-)                             (5,112)             (5,660)                548
                    3032 Actual Transfers,                                    0                    0                     0
                    Unpaid Obligations (Net) (+ or -)
                    3042 Recoveries of Prior                              (780)                (780)                     0
                    Year Unpaid Obligations (-)
                    3050 Unpaid Obligations,                             $7,619               $8,223             ($604)
                    End of Year
                    Uncollected Payments
                    3060 Uncollected Payments,
                    Federal Sources, Brought                          ($6,077)                $6,673          ($12,750)
                    Forward, October 1 (-)
                    3066 Adjustments to Uncollected
                    Payments, Federal Sources,                                0                    0                     0
                    Start of Year (+ or -)
                    3072 Change in Uncollected
                    Payments, Federal Sources                             (410)                 (53)              (357)
                    (+ or -)
                    3082 Actual Transfers,
                    Uncollected Payments, Federal                             0                    0                     0
                    Sources (Net) (+ or -)




66 │ Report No. DODIG-2014-066
                                                                                                        Appendixes



     Line Number and Title                    SBR             LMP Trial Balance   Dollar Variance
3090 Uncollected Payments,                          (6,487)               6,620           (13,107)
Federal Sources, End of Year (-)
3100 Obligated Balance,                                912               15,249           (14,337)
Start of Year (+ or -)
3200 Obligated Balance,                             $1,132             $14,843           ($13,711)
End of Year (+ or -)
                                   Budget Authority and Outlays, Net
4175 Budget Authority, Gross                     $13,511               $13,109               $402
(Discretionary and Mandatory)
4177 Actual Offsetting
Collections (Discretionary                          (4,906)             (5,094)              (188)
and Mandatory) (-)
4178 Change in Uncollected
Customer Payments from                               (410)                 (53)              (357)
Federal Sources (Discretionary
and Mandatory) (+ or -)
4179 Anticipated Offsetting
Collections (Discretionary                          (2,787)             (2,921)                134
and Mandatory) (+ or -)
4180 Budget Authority, Net                           5,408                5,041                367
(Discretionary and Mandatory)
4185 Outlays, Gross                                  5,112                5,661              (549)
(Discretionary and Mandatory)
4187 Actual Offsetting
Collections (Discretionary                          (4,906)             (5,094)                188
and Mandatory) (-)
4190 Outlays, Net                                     $206                $567              ($361)
(Discretionary and Mandatory)
4200 Distributed Offsetting                              0                    0                     0
Receipts (-)
4210 Agency Outlays, Net                              $206                $567              ($361)
(Discretionary and Mandatory)




                                                                                         Report No. DODIG-2014-066 │ 67
Appendixes




                  Appendix F
                  Managing the Apportionment and Allotment Process
                  Illustration F-1 provides a summary-level view of funds control for revolving fund
                  activities. It depicts the business flow from the time DWCF activities provide their
                  proposed budget to OUSD(C) in support of the President’s Budget Submission through
                  the Final SF 132 submitted to OMB. Illustration F-1 shows information for FY 2013 as
                  provided by OUSD(C) personnel.

                  Illustration F-1. Business and Communication Flow for Annual Operating
                  Budget Distribution


                   August 2011:                September 2012: OUSD(C)           September 2012: OUSD(C)
                   Components load             validates the SF 132 in           receives OMB-approved SF 132
                   their FY 2013 Budget        MAX system and sends it to        and issues Annual Operating
                   Control Numbers into        OUSD(C) P&FC for further          Budget to Components on
                   Comptroller Information     review and upload and             or before October 1st of the
                   System (CIS)                OUSD(C) sends an unofficial       budget year
                                               copy to OMB
                                                                                 Communicate actual
                                                                                 apportionment and allotment
                                                                                 to DWCF budget offices.
                   September-December          September 2012: OUSD(C)
                   2011: OUSD(C)               breaks out non-supply
                   documents submission        reimbursable authority
                   adjustments during their    between estimated PY              November 2012: OUSD(C)
                   fall budget review          unobligated balances brought      submits SF 132 in MAX system
                                               forward and spending              for Actual PY Unobligated
                                               authority for the SF 132 and      Balances brought forward and
                                               reconciles it to CIS              any continuing resolution or
                                                                                 appropriation

                   January 2012: OUSD(C)                                         Communicate changes in
                   submits Final CIS figures                                     apportionment and allotment
                                               August 2012: OUSD(C) issues
                   for Presdent’s Budget                                         to DWCF budget offices.
                                               data call for slips in contract
                   into OMB’s MAX system
                                               authority required for Capital
                                               Investment Program

                                                                                 February 2013: OUSD(C)
                                                                                 submits tentative final FY 2013
                   August 2012: OUSD(C)        August 2012: OUSD(C)              SF 132 to revise, if needed,
                   downloads FY 2013           creates Annual Operating           •	 Actual PY unobligated
                   SF 132 template from        Budget reconciliation sheets          balances brought forward
                   MAX system                  and funds tracking                 •	 Continuing resolution or
                                                                                     appropriation
                                               Communicate                        •	 Spending authority
                                               Congressionally approved           •	 Contract authority
                                               budget authority to DWCF              for operating, capital
                                               Budget Offices.                       investment, and variability
                                                                                     target

                                                                                 Communicate changes in
                                                                                 apportionment and allotment
                                                                                 to DWCF budget offices.




68 │ Report No. DODIG-2014-066
                                                                                             Appendixes



During the process, communication between OUSD(C) personnel and the DCWF
budget offices is essential. At four points during the process, we identified the key
communication points (annotated in black).      OUSD(C) personnel needed to better
communicate events occurring throughout the DWCF budget process. DWCF budget
preparation focuses on business events occurring during the Perform Budget
Planning and Formulation and the Distribute and Manage Budget Phases.


Perform Budget Planning and Formulation Phase
At the beginning of each fiscal year, OUSD(C) personnel need to capture the enactment
of the annual appropriation acts and other legislation and assess what budget
authority Congress gave to the DWCF. Once determined, they should communicate
the anticipated, estimated, and realized budget authority amounts to the DWCF
budget offices for them to establish these amounts within their ERP systems. For
example, in August 2012, OUSD(C) personnel should have informed ABO personnel
of the amounts that Congress approved for FY 2013 AWCF appropriated funding,
contract authority, and spending authority and provided them a document supporting
those amounts for entry into LMP. ABO personnel could then record each of the
budget authorities in LMP as Unapportioned Authority within DoD SCOA account
445000.9000.    This business event typically occurs in August of each year before
the submission of the DWCF apportionment schedule to OMB. This activity should
coincide with the August  2012 events depicted in Illustration F-1.      For FY 2013,
Congress did not pass an appropriation act by August 2012; therefore, OUSD(C)
personnel should only request from OMB the contract reapportionment of balances
carried forward, new contract authority, and new spending authority on its initial
SF 132. For the AWCF, OUSD(C) personnel should have requested $8.6 billion in new
contract authority and $5 billion in spending authority for new customer orders, a total
increase in unapportioned authority of $13.6 billion. LMP did not properly record these
amounts because the current Annual Operating Budget process did not provide ABO
with the documentation needed to support the recording of all unapportioned authority.


Distribute and Manage Budget Phase
OUSD(C) personnel needed to update the procedures for performing processes
associated with the Execute Continuing Resolution and the Execute Apportionment
and Allocate Funds business events. Once ERP systems contain the Unapportioned
Authority for an upcoming fiscal year, it was essential that OUSD(C) personnel provide
the DWCF budget offices with the information they need to update the status of each
type of budget authority, beginning with the apportionment by OMB and continuing




                                                                              Report No. DODIG-2014-066 │ 69
Appendixes



                  through the allotment to DWCF budget offices. This requires the DWCF budget offices
                  to record two or more business events in the ERP systems that change the status of
                  authority from unapportioned to allotted. The September 2012 box in Illustration F-1
                  depicts where in the process OUSD(C) personnel should communicate the OMB approval
                  of the apportionment. The recording of DTCs to perform the allotment of authority to the
                  DWCF budget offices and the suballotment of authority by those offices to execution
                  activities should follow receipt of the Annual Operating Budget from OUSD(C). The
                  apportionment, allotment, and suballotment process can occur multiple times in a
                  fiscal year upon release of subsequent SF 132s. Each time, OUSD(C) personnel should
                  communicate any change in budget authority status to the DWCF budget offices so they
                  can update information in the ERP systems.

                             •	 During the normal appropriation process, DFAS personnel receive a Treasury
                                 warrant for Treasury Appropriation Fund Symbol 97X4930 and prepare
                                 non expenditure transfer documents (SF 1151) transferring the funding
                                 to the five DWCF subcomponents. The recording of the appropriation and
                                 any reprogramming requirements should occur in an accounting system
                                 that OUSD(C) personnel designate to manage Treasury Appropriation
                                 Fund Symbol 97X4930. OUSD(C) personnel should also substantiate that
                                 the accounting system records the rescissions or withholding of authority
                                 and transfers funding to the accounting systems designated to manage
                                 the five subcomponents of the DWCF. Upon receipt of a Treasury warrant
                                 or continuing resolution authority, they should provide the DWCF budget
                                 office personnel with an SF 1151 showing the amount of unapportioned
                                 authority transferred to that component. Each DWCF budget office should
                                 establish this amount as unapportioned budget authority within its ERP
                                 system. Normally, this action would occur upon enactment of the public law
                                 providing the appropriation. OUSD(C) personnel can then submit an SF 132
                                 to request the apportionment of the funds and, upon approval, notify each
                                 DWCF budget office of the amount apportioned for them to record in the
                                 ERP systems as an apportionment transaction. Finally, OUSD(C) personnel
                                 can then allot funding to the DWCF budget offices for execution by using the
                                 Annual Operating Budget to communicate the status of the three distinct
                                 business events (DTCs A480, A116, and A120).

                             •	 Beginning in August, OUSD(C) personnel should communicate the total
                                 amount of budget authority provided in the congressionally approved budget
                                 and continually update each resources status from inception through its
                                 allotment to one of the five DWCF subcomponents.



70 │ Report No. DODIG-2014-066
                                                   Management Comments




Management Comments
Under Secretary of Defense (Comptroller)/Deputy Chief
Under  Secretary of Defense (Comptroller)/
Officer, DoD
Deputy Chief Financial Officer, DoD




                  Click to add JPEG file




                                                  Report No. DODIG-2014-066 │ 71
Management Comments



                 Under
                 UnderSecretary
                          Secretaryofof
                                      Defense (Comptroller)/Deputy
                                        Defense  (Comptroller)/ Chief
                 Officer, DoD
                  Deputy Chief Financial Officer, DoD (cont’d)




                                   Click to add JPEG file




72 │ Report No. DODIG-2014-066
                                                        Management Comments



Under
UnderSecretary
        Secretaryofof
                    Defense (Comptroller)/Deputy
                      Defense  (Comptroller)/ ChiefFinal ReportFinal Report
Officer, DoD                                       Reference Reference
Deputy Chief Financial Officer, DoD (cont’d)




                                                        Addendums 1–6 are
                                                                 Addendums
                                                        not included in the 1-6 are
                                                                    not included in the
                                                        report      report




                   Click to add JPEG file




                                                        Report No. DODIG-2014-066 │ 73
Management Comments



                 Under Secretary of Defense (Comptroller)/Deputy Chief
                 Under Secretary of Defense (Comptroller)/
                 Officer, DoD
                  Deputy Chief Financial Officer, DoD (cont’d)




                                   Click to add JPEG file




74 │ Report No. DODIG-2014-066
                                          Management Comments



Deputy Chief Management Officer, DoD
 Deputy Chief Management Officer, DoD           Final Report
                                          Final Report
                                                 Reference
                                          Reference




                                          Redirected
                                             Redirected
                                              recommendation
                                          recommendation




                 Click to add JPEG file




                                          Report No. DODIG-2014-066 │ 75
Management Comments



                 Assistant Secretary of the Army (Financial Management
                  Assistant Secretary of the Army (Financial Management
                 and Comptroller)
                  and Comptroller)




                                 Click to add JPEG file




76 │ Report No. DODIG-2014-066
                                                Management Comments



Assistant Secretary of the Army (Financial Management
 Assistant Secretary of the Army (Financial Management
and Comptroller)
and Comptroller) (cont’d)




                Click to add JPEG file




                                                Report No. DODIG-2014-066 │ 77
Management Comments



                 Assistant Secretary of the Army (Financial Management
                  Assistant Secretary of the Army (Financial Management
                 and Comptroller)
                  and Comptroller) (cont’d)




                                  Click to add JPEG file




78 │ Report No. DODIG-2014-066
                                                Management Comments



Assistant Secretary of the Army (Financial Management
 Assistant Secretary of the Army (Financial Management
and Comptroller)
and Comptroller) (cont’d)




                Click to add JPEG file




                                                Report No. DODIG-2014-066 │ 79
Management Comments


                   Assistant Secretary of the Army (Financial Management
                  Assistant Secretary of the Army (Financial Management
                  and Comptroller)
                  and Comptroller) (cont’d)




                                     Click to add JPEG file




80 │ Report No. DODIG-2014-066
                                                                                                        Glossary




Glossary
Allotment. A subdivision of an apportionment made by the agency head.

Allocation. A delegation of authority to obligate budget authority and outlay funds,
authorized in law, by one agency to another agency.

Apportionment. An OMB-approved plan to spend resources provided by one of the
annual appropriations acts, a supplemental appropriations act, a continuing resolution,
or a permanent law (mandatory appropriations).              OMB apportions resources by
Treasury Account Fund Symbol. The apportionment identifies amounts available for
obligation and expenditure. It specifies and limits the obligations that may be incurred
and expenditures made (or makes other limitations, as appropriate) for specified periods,
programs, activities, projects, objects, or any combination thereof.

Annual Operating Budget. The Annual Operating Budget identifies an operating budget,
operating results, unit cost targets and capital budget limitation for each Component’s
activity group.

Appropriation. A provision of law, not necessarily in an appropriations act, authorizing
funds expenditure for a given purpose. An appropriation usually provides budget
authority.

Budget Authority. The authority, provided by law, to incur financial obligations that will
result in outlays. Specific types of budget authority include appropriations, borrowing
authority, contract authority, and spending authority from offsetting collections.

Continuing Resolution. An appropriation, in the form of a joint resolution that provides
budget authority, specific activities, or both to continue operation when Congress and the
President did not complete actions on the regular appropriations acts by the beginning
of the fiscal year.

Contract Authority. A type of budget authority that allows agencies to incur obligations
in advance of an appropriation, offsetting collections, or receipts to make outlays
to liquidate the obligations.     Typically, Congress provides contract authority in an
authorizing statute to allow agencies to incur obligations in anticipation of the collection of
receipts or offsetting collections used to liquidate the obligations.




                                                                                     Report No. DODIG-2014-066 │ 81
Glossary



                  Spending Authority from Offsetting Collections. A type of budget authority that
                  allows the financing of obligations and outlays by offsetting collections.

                  Suballotment. A subdivision of an allotment.

                  Transfer. The process of moving budgetary resources from one budget account to
                  another. An expenditure transfer involves an outlay; whereas, a nonexpenditure transfer
                  does not.

                  Unexpended Balance. The sum of the unobligated and obligated balances.

                  Unobligated Balance. The cumulative amount of budget authority that is not obligated
                  and remains available for obligation.




82 │ Report No. DODIG-2014-066
                                                                            Acronyms and Abbreviations




Acronyms and Abbreviations
      ABO Army Budget Office
ASA(FM&C) Assistant Secretary of the Army (Financial Management and Comptroller)
     AWCF Army Working Capital Fund
       BEA Business Enterprise Architecture
       B2R Budget-to-Report
     DCFO Deputy Chief Financial Officer
    DCMO Deputy Chief Management Officer
     DDRS Defense Departmental Reporting System
      DFAS Defense Finance and Accounting Service
       DTC DoD Transaction Code
     DWCF Defense Working Capital Fund
       ERP Enterprise Resource Planning
      FMR Financial Management Regulation
      LMP Logistics Modernization Program

      OMB Office of Management and Budget
  OUSD(C) Office of Under Secretary of Defense (Comptroller)
      PMO Product Management Office
       SBR Statement of Budgetary Resources
     SCOA Standard Chart of Accounts
       SFIS Standard Financial Information Structure
    USSGL United States Government Standard General Ledger




                                                                                   Report No. DODIG-2014-066 │ 83
           Whistleblower Protection
          U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD
Hotline Director. For more information on your rights and
remedies against retaliation, go to the Whistleblower webpage at
             www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               Congressional@dodig.mil; 703.604.8324

                            Media Contact
               Public.Affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                      Reports Mailing List
                    dodig_report@listserve.com

                              Twitter
                        twitter.com/DoD_IG

                           DoD Hotline
                          1.800.424.9098
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
